<html>
<title> - JUVENILE JUSTICE REFORM IN THE MODERN ERA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
               JUVENILE JUSTICE REFORM IN THE MODERN ERA

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 22, 2017

                               __________

                           Serial No. 115-37

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
      
                             _________ 
                                  
                  U.S. GOVERNMENT PUBLISHING OFFICE
 32-309                    WASHINGTON : 2018      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr., 
TRENT FRANKS, Arizona                    Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

 Subcommittee on Crime, Terrorism, Homeland Security and Investigations

                  TREY GOWDY, South Carolina, Chairman
                  LOUIE GOHMERT, Texas, Vice-Chairman
JIM SENSENBRENNER, Jr., Wisconsin    SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   TED DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
JOHN RATCLIFFE, Texas                HAKEEM JEFFRIES, New York
MARTHA ROBY, Alabama                 TED LIEU, California
MIKE JOHNSON, Louisiana     
JAMIE RASKIN, Maryland
                             C O N T E N T S

                              ----------                              

                              JUNE 22, 2017

                           OPENING STATEMENTS

                                                                   Page
 The Honorable Louie Gohmert, Texas, Subcommittee on Crime, 
  Terrorism, Homeland Security, and Investigations; Committee on 
  the Judiciary..................................................
 The Honorable Bob Goodlatte, Virginia, Chairman, Committee on 
  the Judiciary..................................................     1
 The Honorable John Conyers, Jr., Michigan, Ranking Member, 
  Committee on the Judiciary.....................................     6

                                WITNESSES

 Mr. Alan Hanson, Acting Assistant Attorney General, Office of 
  Justice Grant Programs, Department of Justice
     Oral Statement..............................................
 Mr. Joe Vignati, Assistant Commissioner and Chief of Staff, 
  Georgia Department of Juvenile Justice
     Oral Statement..............................................     7
 Mr. Devon McDonald, Chief of Staff and General Counsel, Indiana 
  Criminal Justice Institute
     Oral Statement..............................................     9
 Mr. Jim SaintGermain, Co-Founder, Preparing Leaders of Tomorrow
     Oral Statement..............................................    11
 Ms. Liz Ryan, President & CEO, Youth First
     Oral Statement..............................................    13


               JUVENILE JUSTICE REFORM IN THE MODERN ERA

                              ----------                              


                        THURSDAY, JUNE 22, 2017

                        House of Representatives

               Subcommittee on Crime, Terrorism, Homeland

                      Security, and Investigations

                       Committee on the Judiciary

                             Washington, DC

    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Bob Goodlatte 
[chairman of the committee] presiding.
    Present: Representatives Goodlatte, Gohmert, Chabot, 
Ratcliffe, Roby, Gowdy, Jackson Lee, Conyers, Deutch, Bass, 
Jeffries, and Lieu.
    Staff Present: Anthony Angeli, Counsel; Scott Johnson, 
Clerk; Joe Graupensperger, Minority Chief Counsel, Subcommittee 
on Crime, Terrorism, Homeland Security, and Investigations; 
Veronica Eligan, Minority Professional Staff Member; Mauri 
Gray, Minority Crime Detailee; and Monalisa Dugue, Minority 
Deputy Chief Counsel for Subcommittee on Crime, Terrorism, 
Homeland Security, and Investigations.
    Chairman Goodlatte. Good morning. The Subcommittee on 
Crime, Terrorism, Homeland Security, and Investigations will 
come to order. And without objection, the chair is authorized 
to declare recesses of the subcommittee at any time. And we 
welcome everyone to today's hearing on juvenile justice reform 
in the modern era. And I will now recognize myself for an 
opening statement.
    Throughout history, societies have struggled to establish 
appropriate ways to deal with juvenile offenders. Punitive 
measures for juvenile offenders and provision of care for 
juvenile delinquents is discussed in the code of Hammurabi, the 
Talmud, and Rome's 12 Tables. Today we recognize that societies 
must aim for juvenile justice systems that protect public 
safety, hold justice involved youth appropriately accountable, 
and provide treatment and rehabilitative services tailored to 
the needs of youth and their families. We can all agree that 
juvenile offenders must be treated differently than adult 
offenders.
    Congress recognized this fact in 1974 when it passed the 
Juvenile Justice and Delinquency Act. This legislation and its 
progeny have established core requirements for States in 
building their juvenile justice systems. It induces States to 
deinstitutionalize status offenders prevent youth from being 
detained with adult offenders, and address disproportionate 
minority contact with the juvenile justice system. There are 
very few juveniles in custody in the Federal system.
    In fact, there are approximately 30. Most are there because 
they have been charged as adults in Washington, D.C., or on 
tribal lands. According to the Department of Justice, these 
juveniles tend to be older, generally between 17 and 20 years 
of age, are typically sentenced for sex-related offenses, and 
have typically committed violent offenses and have a history of 
responding to interventions and preventative measures in the 
community unfavorably. They are sentenced by the Federal courts 
to the custody of the Federal Bureau of Prisons as a last 
resort.
    Conversely, at the State level on any given day there are 
around 50,000 juveniles in residential facilities. Juveniles 
12-years-old or younger comprise 1 percent of the detained 
juvenile population, while 17-year-old juveniles comprise about 
a third of the juvenile population. Due to the fact that nearly 
all juveniles in the criminal justice system are State level 
offenders, federalism plays an important role in improving 
juvenile justice. It has allowed States to try out various 
initiatives and see what is effective and what is not. Indeed, 
I am glad to see States exploring ways to reduce recidivism and 
improve youth outcomes by using evidence-based and evidenced-
informed programs, practices, and policies.
    I am pleased to welcome Mr. Vignati from Georgia, and Mr. 
McDonald from Indiana to today's hearing. Georgia and Indiana 
are at the forefront of juvenile justice reform and have 
implemented numerous programs to help reduce recidivism and 
rehabilitate youths. I am particularly impressed by their 
commitment to using risk assessment instruments in lowering the 
number of juveniles in residential facilities and their efforts 
to assure all juveniles in secure facilities have access to 
education through the school districts where the facility is 
located. I look forward to hearing more about these initiatives 
and others that have been successful.
    Even though State systems and the Federal systems are 
distinct, I have always maintained that the States are 
laboratories of democracy and they can show the national 
government what works and what does not. And more importantly, 
what reforms can be accomplished without endangering public 
safety. As you know, in the 114th Congress, this committee led 
the way in the formulation of criminal justice reform 
legislation. We plan to continue that effort in this Congress. 
So, I want to thank all of you for being here today. I will 
introduce all of the witnesses in a moment. But first, I want 
to hear from the ranking member of this subcommittee, the 
gentlewoman from Texas, Sheila Jackson Lee, who has been a 
champion for juvenile justice for as long as I have known her. 
And welcome.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. I want 
the audience to know that we feel very important today because 
we have the chairman of the full committee and the ranking 
member of the full committee at the criminal justice committee. 
So, I know that the chairman will ask us not to applaud, but I 
am going to applaud because I am very happy for them to be 
here. We thank you very much.
    There we go. And I think the point is, is that this is a 
very important hearing today. And I thank the chairman and the 
ranking member for their courtesies. All of those who are 
gathered, thank you for your interest. I know that there are 
many in the audience that have spent their lives work helping 
us on juvenile justice reform.
    And Jenny Collier, I want to thank her for her longstanding 
work that she has engaged in and the organization Campaign for 
Youth Justice for the work that they have done and the work 
that they will continue to do. I want to acknowledge the 
members that are here and particularly our members are coming, 
but I want to acknowledge Congresswoman Karen Bass, who has a 
longstanding history in youth justice issues particularly youth 
in foster care. And Hakeem Jeffries from New York, who has also 
had a very esteemed record in dealing with criminal justice 
reform. And I want to thank our other members who are en route, 
Mr. Raskin and Mr. Richmond, and others who are en route. 
Again, thank you again for the hearing on this important issue 
of juvenile justice reform in the modern era.
    I very much look forward to working with my colleagues on 
both sides of the aisle to move forward meaningfully as we 
tackle the challenges laced in our juvenile justice system and 
welcome this opportunity to hear from each of you as experts 
this morning. I would like to thank our witnesses, Ms. Liz 
Ryan, President and CEO of Youth First, who has a storied 
history in reform, and I look forward to her testimony on the 
major savings that have come about by doing the right thing.
    Mr. Jim SaintGermain, who I was enormously impressed with 
as I walked in this morning, co-founder of Preparing Leaders of 
Tomorrow, he has lived the system and will be able to tell us 
first hand of his experiences. Mr. Joe Vignati, who represents 
major changes in the State of Georgia. And he will testify to 
their impact. Mr. Devon McDonald, the same in Indiana. And he 
will testify to their impact. I think the good news is these 
are Democrats and Republicans.
    Thank you all for your willingness to be here and to help 
enlighten members of Congress on what is happening at the 
ground level both good and bad.
    I want to dedicate this hearing to Kalief Browder who 
learned how to commit suicide, according to this article, on 
Rikers Island. On June 6th, 2015, Kalief Browder took his own 
life at his home in the Bronx. He was 22 years old. He had been 
released from Rikers Island adult institution even though he 
was allegedly segregated 2 years earlier ending an ordeal that 
had begun on a spring night in 2010 when he had been arrested 
for robbery at 16. He spent the next 3 years in jail trying to 
prove his innocence and would not commit or acknowledge guilt. 
He said he was innocent.
    For, as I understand the fact, the individual with the 
backpack that he was supposed to have stolen was out of the 
country at the time of the incident. For about 2 of those years 
he was held in solitary confinement where he attempted to 
commit suicide several times. The charges against him were 
eventually dropped. And by the way, it took a long time for him 
to get counsel. And of course, the story goes on to tell his 
story. This is a tragedy.
    As a ranking member of the crime subcommittee, I am 
committed to finding ways to work collaboratively with the 
chairman, my colleagues, and experts like yourselves in order 
to move forward effectively on juvenile justice reform. I am 
pleased to say that the subcommittee understands the importance 
of juvenile justice reform, and this hearing is indicative of 
the bipartisan desire to address the most vulnerable segment of 
our society: juveniles.
    While some may feel that the Federal Government should 
leave reform measures to the State, I believe that there is but 
one child in the Federal system, and that is one too many if 
there is one child. But more importantly, I believe that 
collaboration between the Federal Government and State 
government is an important statement of what America believes 
in and that we will help other States that have not yet moved 
to that position. There is a unique distinction between 
juveniles and adult offenders. Trends in the States and the 
information presented in this hearing will inform efforts to 
reform the prosecution and incarceration of juveniles at the 
Federal level, but making a statement for those who are dealing 
with children, if I might use that terminology, all over the 
Nation.
    Our children need us. We are losing them in great numbers 
either to the streets, gang violence, to our justice system, 
or, tragically, by death. It is time for all of us to wake up 
and say, ``No more.'' No to the policies that are robbing them 
of their youth by throwing them away into the adult penal 
institutions. No to the policies that look to cut essential 
funding as proposed in the President's 2018 budget, and that 
have proven over the years to the profound impacts on 
juveniles. We should all collaborate on what is good. The 
numbers that I have heard are maybe in the millions and 
billions that one can save across the Nation if our States will 
all collectively realize these are our children. We must not 
allow cuts or elimination of youth programs, as this will 
exacerbate the problems we are trying mightily to remedy 
through reform.
    I was a member of the city council when this Congress 
passed midnight basketball. I know there was a lot of humor in 
that by some. I also know that as things change, elections 
change, there was a rush to get rid of midnight basketball. But 
I am a city council member, and I want to testify to you that 
we use midnight basketball in Houston, Texas. And I would go to 
the parks as I insisted to the parks and recreation, ``Take 
advantage of midnight basketball.'' And I would meet gang 
leaders there playing basketball and, as well, doing homework 
in the parks that were open till a little after midnight in 
Houston, Texas with the midnight basketball funds.
    Currently, the President's budget proposals cuts in the 
beginning that will adversely impact youth and further deplete 
equal access to proper health, adequate workforce justice, and 
solid education. Elimination or cuts of these programs will 
further contribute to the disproportionate treatment of 
juveniles and issue at heart of the juvenile justice crisis. 
This goes on for Health and Human Services, et cetera, 
AmeriCorps; $700 million reduction may impact the Office of 
Juvenile Justice and Delinquency Prevention, which is so much a 
part of the work that we do in the Judiciary Committee. It must 
be noted that the Juvenile Justice and Delinquency Prevention 
Act, which is an underpinning of that agency, has not been 
reauthorized in more than a decade. I look forward to working 
with the chairman on reauthorizing as he has done with the 
ranking member, the juvenile block grant programs, which will 
enhance the safety of our youth and our legislation adds a 
component of bullying prevention and intervention.
    We need to capture the moment to see how we can save our 
youth and work on the childhood errors. We must address the 
disparity in treatment as well documented by the Juvenile 
Justice and Delinquency Coalition in its recent report, and be 
honest when we look at the national data. While there are 
varying degrees of concern for multiple aspects of our juvenile 
justice system, the racial disparity is particularly alarming. 
The cases brought against black youth were three to four times 
higher than their white, Hispanic, and American Indian 
counterparts and nine to 16 times higher than the rates for 
Asian youth.
    In 2014, white youth made up 56 percent of the U.S. 
population under juvenile court jurisdiction, but black youth 
meanwhile, were at numbers higher than that. Although white 
youth represent the largest share of the delinquent caseload 
with their respective representation to the incarcerated 
population declining, black and Hispanic represented a higher 
number in the incarcerated population.
    So, we need to use these facts and these science to make 
sure that we do what is right for our children. We have 
overwhelming support from many organizations to move forward. 
As I indicated, I think that this is a bipartisan effort. And 
as we spend so much money to lock up our young people, let's 
spend a lot of money to invest in our young people. This 
juvenile justice system was created in 1899 in Chicago on the 
basis of separating youth from the adult criminal justice 
space. Sometimes this has not happened in our current system. 
Therefore, we want to do better. The Supreme Court last year 
ruled that a 2012 precedent banning mandatory sentences of life 
without parole for juvenile killers must be applied 
retroactively due to reliable scientific evidence that shows 
the human brain does not reach full implementation until the 
'20s.
    So, thank you so very much, Mr. Chairman, for ensuring that 
we can move forward. I want to just conclude by saying I 
indicated I was dedicating this to Kalief Browder. None of us 
lived his life. None of us were incarcerated in Rikers Island 
that are sitting here on this panel for a period of our life. 
How would anyone imagine what that felt like at 16 years old? 
What do we know that Kalief could have been? A loving son to 
his mom who has passed away? A brother to his siblings and a 
great leader in the city of New York. My heart pains for him 
and the millions of other children that face this.
    And so, I want to say to the attorney general, his recent 
memo that takes away prosecutorial discretion from persecutors 
and his recent announcement to provide additional Federal 
manpower to 12 States, we must give serious attention to what 
impact that may have on juvenile justice reform in the modern 
era. I look forward to hearing the witnesses. Mr. Chairman, 
thank you so very much for yielding and I yield back.
    Chairman Goodlatte. Thank you very much, Ms. Jackson Lee. 
As the ranking member of the subcommittee noted, the ranking 
member of the full committee is also with us today. The 
gentleman from Michigan, Mr. Conyers, who has been a leader in 
criminal justice reform including juvenile justice reform. And 
I now recognize him for his opening statement.
    Mr. Conyers. Thank you very much, Chairman Goodlatte. Top 
of the morning to all of you. I want to thank the chairman and 
the former subcommittee chairman, Trey Gowdy, for working with 
our distinguished Texas colleague Sheila Jackson Lee, the 
ranking member, and me, to schedule this important hearing. It 
is important for all the reasons that have been stated so far.
    All of us, public officials, community leaders, and 
parents, have a special duty to do all we can to provide every 
opportunity for our children and young people to start their 
lives in environments that enhance their chances of living 
healthy and productive lives. And all young people need 
encouragement and proper guidance as they begin to make 
increasingly consequential choices that impact themselves and 
others. Unfortunately, sometimes young people violate our laws 
and we must continue to examine the appropriate ways to 
respond, both in terms of accountability and helping them get 
back on track. As we examine these very issues in this hearing 
today and determine the role we should play in developing 
related policy in the future, we should keep several 
considerations in mind.
    First, advances in brain science and technology are helping 
us better understand how the adolescent brain functions. We now 
know that young people's brains continue to mature until early- 
to mid-20s. And adolescent's brains are different from adult's 
brains both structurally and in how they are influenced by 
chemicals produced by the body. Child brain development experts 
have concluded, as a result of their studies, that adolescents 
are less culpable than typical adults because of their 
diminished-decision making capacity. And critically, behavioral 
and brain development research shows that children who commit 
crimes are more likely to reform their behavior and have a 
better chance at rehabilitation than adults. Secondly, the good 
news is that much of the recent experience with respect to 
juvenile justice reform in the State confirms that what the 
science is telling us: that evidence-based strategies to reduce 
overall reliance on confinement and residential commitment for 
juveniles actually leads to improve public safety.
    Now, as a result juveniles in this country are, according 
to the Pew Center research, much less likely to be arrested for 
violent crime and committed to State custody than they were 15 
years ago. During that period, the juvenile violent crime 
arrest rate fell 46 percent. The States are experimenting with 
reforms that are working. And I hope that we continue and 
increase our support of these efforts.
    Finally, as we examine strategies to intervene when 
juveniles violate the law, we must also do more to prevent 
these violations from occurring in the first place. There are a 
range of programs that we must not abandon, which include 
proper physical and mental health care, nutritional assistance, 
early childhood education, and giving young people better 
options for after school and free time activities. In fact, we 
must pursue comprehensive community-driven and evidence-based 
prevention initiatives through legislation such as the Youth 
Promise Act. We know what works and we must empower more 
communities to put research into practice. And so, I hope this 
hearing begins a constructive and bipartisan discussion of 
these issues.
    And so, again, I thank not only the Chairman Goodlatte, but 
especially my colleague Sheila Jackson Lee. Thank you, Mr. 
Chairman.
    Mr. Chabot [presiding]. Thank you. The gentleman yields 
back and, without objection, other members' opening statements 
will be made a part of the record.
    And we have a very distinguished panel today. We will begin 
by swearing in our witnesses before introducing them. So, if 
you will all stand and raise your right hands please. Do you 
swear that the testimony that you are about to give before this 
committee is the truth, the whole truth, and nothing but the 
truth so help you God? Thank you. Let the record reflect that 
all the witnesses responded in the affirmative, and you may all 
be seated.
    And now, introducing our witnesses, our first witness is 
Joe Vignati, who is the Assistant Commissioner and Chief of 
Staff of the Georgia Department of Juvenile Justice. Our second 
witness is Devon McDonald, who is the Chief of Staff and 
general counsel of the Indiana Criminal Justice Institute. Our 
third witness is Mr. Jim SaintGermain, who is the co-founder of 
the organization Preparing Leaders of Tomorrow. And our fourth 
and final witness will be Ms. Liz Ryan, who is the President 
and CEO of Youth First.
    And each of the witnesses written statements will be 
entered into the record in its entirety. I would ask that each 
witness summarize his or her testimony in 5 minutes or less. To 
help you stay within that time, there is a timing light in 
front of you. The green light will be on for 4 minutes. The 
yellow light will come on and let you know you got about a 
minute to wrap up, and then the red light will come on to let 
you know that your time is up. And we would appreciate it if 
you would stay within that as much as possible. We now would 
like to recognize our first witness, Mr. Vignati, you are 
recognized for 5 minutes. And if you could all remember, 
everybody forgets this, but if you could hit the button to turn 
on the mic there. Everybody forgets, as I say, so it is no big 
deal.
    Mr. Vignati. Thank you, sir.
    Mr. Chabot. Thank you.

STATEMENTS OF JOE VIGNATI, ASSISTANT COMMISSIONER AND CHIEF OF 
STAFF, GEORGIA DEPARTMENT OF JUVENILE JUSTICE; DEVON McDONALD, 
 CHIEF OF STAFF AND GENERAL COUNSEL, INDIANA CRIMINAL JUSTICE 
 INSTITUTE; JIM SAINTGERMAIN, CO-FOUNDER, PREPARING LEADERS OF 
     TOMORROW; AND LIZ RYAN, PRESIDENT AND CEO, YOUTH FIRST

                    STATEMENT OF JOE VIGNATI

    Mr. Vignati. Good morning, Mr. Chair, and esteemed members 
of the judiciary subcommittee. Thank you for inviting me to 
testify today about juvenile justice. My name is Joe Vignati, 
and this past February marked my 30th year working in juvenile 
justice in Georgia. I am not going to be able to condense all 
of my experience over the last 30 years in 5 minutes, so I will 
give you the brief highlights. And I will kind of gloss over 
some of the mistakes I have made.
    During the past three decades, I have had the good fortune 
to be able to grow and adopt a commonsense approach in the care 
for our youth, all the while protecting public safety and 
decreasing crime. In much the same way, over that same time 
period, research has caught up and we now better understand 
what works in juvenile justice. In my testimony today, I would 
like to provide a picture of what we now know and where the 
field of juvenile justice is headed and what Georgia has 
learned during its juvenile reform over the past 4 years.
    Number one. An overwhelming majority of youth in the U.S. 
do not commit delinquent offenses. In 2013, only 3 percent of 
all youth at risk in the United States were referred to 
juvenile court for delinquent offense. This means that over 96 
percent of our youth are not involved in the juvenile justice 
system. For community, school, and law enforcement, it is 
important to recognize that most of our youth are better served 
outside the court system and focus on alternative methods to 
address adolescent behavior. Number two. The number of youth 
brought to juvenile court for violent offenses is very, very 
small.
    In 2013, only 4 percent of all delinquency cases in the 
U.S. were petitioned to court for a violent offense. This means 
that 96 percent of the youth involved in juvenile court are 
there for less serious offenses. Appropriate interventions are 
no doubt required. However, how we approach and serve these 
youth should be based in response to their risk and need and 
not misperceptions about juvenile crime.
    Principles of effective intervention and for delinquency: 
risk, need, responsivity. When I began my work in the field in 
1987, there was not much understanding of what worked in 
juvenile justice. As a result, most of our business was modeled 
on adult corrections. As you can imagine, youth are 
dramatically different than adults both developmentally and in 
their level of responsibility. So, this approach had wildly 
different success rates. Fortunately, the research in the field 
has improved over the years and we now have a more targeted 
approach to youth based on those principles. The most effective 
interventions have been shown to be behavioral and the good 
ones are based on research. These are known as cognitive 
behavioral interventions. Research has shown the programs that 
I am about to list are to be most effective to engage families 
and their youth: multisystemic therapy, functional family 
therapy, Thinking for a Change, aggression replacement 
training, Seven Challenges. We now know that these 
interventions are typically more successful for youth and 
reduce recidivism at rates far better than similarly situated 
youth who do not receive these services and are securely 
confined.
    So, how do we refocus our efforts to intervene 
appropriately with the youth before us? I will try now to share 
how we address some of these issues in Georgia in the hopes 
that the lessons we have learned are instructive. Under the 
leadership of our Governor, Nathan Deal, our general assembly, 
and commissioner, Avery Niles, we have been reforming our 
juvenile system over the past 4 years. Starting in 2012 with 
the formation of the Governor's Special Council on Criminal 
Reform, we looked at our juvenile justice system. We discovered 
that nearly 2/3 of our $300 million budget was being used to 
operate out of home placements. The cost of those placements 
were approximately $90,000 per year per bed. Twenty percent of 
those youth in those placements were placed for low-level 
misdemeanor status offenses. Forty percent of those youth were 
assessed low risk to re-offend. In summation, our State's 
overreliance on secure detention for juveniles was a poor use 
of resources and a poor return on State tax dollars.
    So, what did we do? We reformed our juvenile system. We 
reformed our juvenile code. And we focused on population. We 
only are now securely confining youth that are medium- or high-
risk. We are putting our dollars behind evidence based programs 
and practices. We have shifted from institutional funding to 
community services. Prior to reform, our system was using only 
one gear, the detention gear. Just like a bicycle needs 
different gears to work effectively and efficiently, Georgia is 
now rolling forward with all its gear.
    Mr. Chabot. Thank you very much. I appreciate that. Mr. 
McDonald, you are recognized for 5 minutes.

                  STATEMENT OF DEVON McDONALD

    Mr. McDonald. Thank you, Mr. Chair, the members of the 
committee, thank you very much for having us here today. I am 
delighted to take this opportunity to highlight some of the 
great things that Indiana is doing to help reform the juvenile 
justice system. Like many other States----
    Mr. Chabot. Could you pull the mic just a little closer 
there, please?
    Mr. McDonald. Sure. Thanks. Like most States across the 
Nation, Indiana, over the past decade, has taken a lot of steps 
to help reform and define our juvenile justice system. So, I 
would like to just take a minute to highlight a few or our 
multigovernmental branch approaches to our juvenile justice 
issues in the State of Indiana.
    In 2015, our general assembly, which is our State 
legislature, passed, and then Governor Pence signed into law 
what we consider called dual status children. Dual status 
children in Indiana are children who are identified as a CHINS 
case, or a Child In Need of Services, as well as a juvenile 
that has come in contact with the juvenile justice system. Part 
of the process or part of establishing this law was recognizing 
that a delinquent act, though may have been committed, but what 
are the other social or societal factors that helped or were 
contributory factor in that potential act to the alleged act 
that took place? And so, these children are receiving this 
status. It is a collaborative approach between our Department 
of Child Services case workers, probation, courts, and 
corrections on how to more closely assess the child through 
risk assessments, mental health assessments, and make sure this 
child is either potentially diverted from the system in 
entirety, or receives the types of services that are greatly 
needed to help treat the individual themselves.
    So, that is proving to be, although it is still in its 
infancy, somewhat successful. Another great thing that Indiana 
is doing right now is the implementation of what we call the 
IYAS, which is the Indiana Youth Assessment System. And the 
MYSI 2 screen. The MYSI 2 screening is the Massachusetts Youth 
Screening Instrument, and it is the second version that we are 
using, as implemented in about 20 counties, which incorporates 
a large majority of our juveniles in a juvenile facility. All 
of these individuals receive the MYSI 2 or the IYAS depending 
on the situation and then are treated accordingly either 
through sentencing, adjudication, probation, or they receive 
mental health or substance abuse treatment if substance abuse 
is identified as a key indicator or a key problem for that 
particular child.
    Within our Department of Corrections, we have what is 
called our Division of Youth Services. Our Division of Youth 
Services also has a multitude of programs. These are quite 
spelled out in my testimony. But a couple of the programs I 
would like to highlight that our DYS is operating are both what 
is considered evidence based programs or programs that have 
been peer reviewed and proven to be effective through evidence.
    The first one is moral recognition therapy. It is a 
recidivism reduction therapy. Again, it is cognitive-based. It 
deals with increasing moral reasoning with a child. We also 
have what is called dialectical behavioral therapy, which 
again, is a behavioral-based therapy that focuses on chronic 
issues of frustration, tolerance, anger management, can help a 
young person deal with emotions that they may be feeling. As 
been alluded to, brain science has proven or shown that 
juveniles sometimes are more impulsive or reactionary in their 
responses based on their inability to kind of process through a 
certain situation.
    One of the greatest things that Indiana has done over the 
last 10 years is we have adopted what we call the Juvenile 
Detention Alternatives Initiative, or JDAI for short. JDAI is 
implemented in 92 counties, which is about 1/3 of our counties, 
but encompasses approximately 70 percent of our juvenile 
population. So, it is a huge footprint. JDAI has been adopted 
by the courts, the prosecutors. It is very much a local 
collaborative effort. It has led to about a 53 percent 
reduction in admissions to secured detention, a 41 percent 
reduction in average daily population in secured detention. 
Again, a 47 percent reduction felony petitions filed, which has 
a huge public safety impact, and a 42 percent in reduction to 
our commitments to our DOC.
    Programs that my particular agency has funded that have 
been great and we are very excited are, one, we have helped 
expand the dialectical behavioral therapy and some of our DYS 
facilities. We have also implemented a training called Policing 
the Team Brain that is implemented in one of our largest law 
enforcement agencies. And then, as well as one of our statewide 
law enforcement categories. So, new recruits going through 
these academies receive this training. The training is related 
to how law enforcement can respond to juveniles on the street. 
So, we are hoping that has great impacts on the future. We are 
also developing several family and mental health. Teen drug 
courts or family therapy courts help surround the child or 
child that is alleged to be delinquent or a in a situation.
    So, some of those are some of the very high-level view of 
some of those are some of the very high-level view of some of 
the great things that Indiana is doing. Again, thank you for 
this opportunity and we really appreciate it.
    Mr. Chabot. Thank you very much. Mr. SaintGermain, you are 
recognized for 5 minutes.

                 STATEMENT OF JIM SAINTGERMAIN

    Mr. SaintGermain. Thank you, Mr. Chairman. Thank you to the 
esteemed members of this subcommittee for having me. It is an 
honor to be here.
    My presence in this room is one that I have cherished very 
much because of the struggles and the stories that I have 
experienced as a young man growing up. I was born in Haiti. It 
is a beautiful small island. It is about 3 hours away from 
here. But growing up in Haiti, my father and my family 
struggled a lot. My father was addicted to drugs and alcohol, 
and he was unemployed for most of his life. So, as a child in 
Haiti, I had to fend for myself and roam the streets and find a 
way to survive. Luckily for us, by the age of 10, I was granted 
an opportunity to move to the United States where I moved to 
Brooklyn, New York. And prior to moving to the United States, 
my vision of what this country would look like was solely from 
the movie Home Alone with Kevin.
    I thought that I would move here and my family would have a 
beautiful house and green grass and neighbors would be at our 
doors waiting and welcoming us to this country. And our life 
would be extremely better for us than it was in Haiti. But, 
unfortunately, my reality when I moved to this country was the 
total opposite. I moved into a neighborhood, at the time, who 
was drug infested. A lot of crime, a lot of violence, a lot of 
broken homes and dysfunctional schools. And as a young man, 
which some of the panelists have talked about earlier, my brain 
was not developed enough to adapt to such circumstances the 
right way. So, as a way of trying to assimilate into that 
culture, I fell into a life of crime at a very young age. And 
it started out by just me skipping school, smoking, and 
drinking with friends and just trying to be down. And, 
unfortunately, it led down to bigger issues including me 
hustling and dealing drugs at a very young age.
    Approximately when I was about 15, I had multiple 
encounters with law enforcement officials. And by the time I 
was going back and forth to court, my judge at the time, Mary 
Donahue, she realized that I needed some intervention. So, she 
sentenced me to a year in the juvenile justice system. I was 
very fortunate, though, while in the juvenile justice system I 
was placed in a facility on the program where some of those 
services some of the panelists have acknowledged earlier were 
available to me. So, I received mental health services. I 
received a pretty decent education. I had staff members and 
role models who cared about my wellbeing who invested in me. I 
have had other folks, mentors throughout this community and 
where I am from in the juvenile justice system, who realize 
that I had potentials and who fought for me to be in the 
position that I am in today.
    But the reality is for most young people, that is not the 
case. So, I want to make it very clear that I was the 
exception, not the norm. Fortunately for me, going through the 
system, I was able to move forward and I graduated high school. 
I got my GED, and I moved on to college where I majored in 
human services at the Borough of Manhattan Community College. 
Then I went on to John Jay College where I majored in political 
science, and I received a BA from John Jay College. Thereafter, 
I moved on to grad school at NYU where I majored in public 
administration.
    Unfortunately, I had to stop my grad school experiences due 
to financial reasons. But then, I went back to the juvenile 
justice system and work in the same facility that I was in as a 
young man. And what I encountered while working as a 
practitioner and as a youth care worker was the total opposite 
again of what I experienced.
    So, the young people were coming in younger. They were 
coming in with more traumas and more issues and things that the 
system was not ready to deal with. And a lot of these young 
people, unfortunately, fell through the crack and they 
continued down the wrong path. Experiences such as experiences 
that Mr. Kalief Browder had, who I have had great opportunity 
to work with his brother, Akeem Browder, to change some of the 
policies, some of the draconian policies in New York City that 
were incarcerating young people and pushing them through a 
system where they were being abused physically, abused 
mentally. They were not receiving the help and the services, 
which I received in Rikers Island. And Kalief Browder, 
unfortunately, ended up taking his life. His story was a stark 
contrast to mine, but the only difference between Kalief and I 
is I was 4 months younger than him.
    But our brain development, the experiences we have had, the 
neighborhoods we grew up in were exactly the same. But I 
received the services, which Kalief did not get a chance to 
get. So, I believe that as a Nation, to steal a quote from 
Nelson Mandela, ``You can only measure a Nation's greatness by 
how well it treats its most vulnerable children.'' So, as a 
Nation, I am asking this committee and Congress to invest in 
our young people and provide the same services and the help, 
which they have had. Again, since my time in the system, I have 
co-founded a nonprofit organization that provides services and 
help to young people. I have been appointed to the Juvenile 
Justice Council by the former President. I have had 
opportunities to work with numerous elected officials from all 
over the country, and most importantly, I am a father of a 4-
year-old son who means the world to me.
    So, my passion for public service and the work I do now 
comes directly from my experiences, but simply from the fact 
that I also want to provide an opportunity for my son and all 
children who are growing up in certain neighborhoods and 
circumstances in which they did not have an option in terms of 
what to choose, what economic status which they grew up in and 
some of the troubling things that were presented to them. And, 
in addition to my experiences, I have had an amazing 
opportunity to actually write a book, which will be published 
soon on July 4th. Unfortunately, I do not have too many copies, 
but I brought a few copies for some of you guys on the panel 
today.
    So, thank you guys for hearing me and I really appreciate 
it.
    Mr. Chabot. Thank you. For the record, what is the name of 
the book?
    Mr. SaintGermain. It is A Stone of Hope, and the title came 
from me reflecting at the Dr. King monument, which is not too 
far from here. That is where the title of the book came from. 
It is an amazing story and I hope you guys get a chance.
    Mr. Chabot. Could you repeat it one more time?
    Mr. SaintGermain. A Stone of Hope. ``Out of a mountain of 
despair, a stone of hope.''
    Mr. Chabot. Thank you very much.
    Mr. SaintGermain. Thank you, Mr. Chairman.
    Mr. Chabot. Your testimony is, I think, particularly 
important for us to hear today. So, thank you.
    Mr. SaintGermain. Thank you.
    Mr. Chabot. Ms. Ryan, you are recognized for 5 minutes.

                     STATEMENT OF LIZ RYAN

    Ms. Ryan. Thank you for providing me the opportunity to 
testify today. My name is Liz Ryan, and I am the President and 
CEO of the Youth First initiative. We are a national effort to 
end the use of incarceration for young people and redirect 
resources to community-based alternatives.
    Mr. Chabot. Yeah, if I could ask you if you could pull that 
close. It is a little hard to hear in the back and so we 
appreciate it.
    Ms. Ryan. Is that better?
    Mr. Chabot. That is much better.
    Ms. Ryan. Should I start over?
    Mr. Chabot. Yes. And we will start the clock over.
    Ms. Ryan. Okay. Thank you, Mr. Chairman, for providing me 
the opportunity to talk today before this committee. My name is 
Liz Ryan, and I am the President and CEO of the Youth First 
initiative. It is a national effort to end the use of 
incarceration for young people and to redirect resources to 
community based alternatives to incarceration. In my testimony, 
I will talk about the problems of youth incarceration, State 
trends that move away from incarcerating youth, and the 
opportunity to advance reforms in more States.
    Incarcerating youth is not safe, is not fair, and does not 
work. On any given day there are 50,000 young people confined 
in the United States in the juvenile justice system and not a 
week goes by without a newspaper citing abuse of incarcerated 
youth. In the past month alone, we have heard about a young 
person who died in a correctional facility in Texas. We have 
learned about allegations of abuse in an Arkansas juvenile 
correctional facility, litigation was filed this month against 
the New Jersey Juvenile Justice Commission over the sexual 
abuse of a formerly incarcerated youth, and today, as we hold 
this hearing here, there is a hearing in Wisconsin about the 
abuses at Lincoln Hills, the Nation's largest youth prison.
    Incarcerating youth also is not fair as it 
disproportionately impacts young people of color even though 
white youth and young people of color commit roughly the same 
levels of delinquent behavior. And those facts are undermined 
by a false impression that youth of color commit more crime 
than white youth. That simply is not true. Youth of color and 
white youth engage in the same level of delinquency. And 
incarcerating youth simply does not work. Research shows that 
incarcerating youth greatly increases the likelihood that youth 
will reoffend and it is a significant predictor of entrance 
into the adult criminal justice system.
    It is also very costly. States spend the largest chunk of 
their juvenile justice resources on incarceration in youth 
prisons and other confinement settings at an estimated amount 
of about $5 billion a year. By contrast, community based 
alternatives to incarceration, some of which you hear about 
this morning, could more effectively serve youth at 
substantially less cost. The bottom line here is that States 
have been spending the largest chunk of their juvenile justice 
resources on the strategy that consistently produces the worst 
outcomes for youth, their families, and communities. The good 
news is that States are moving away from this approach. In the 
last decade, a number of States have enacted reforms to reduce 
their reliance on incarceration. These efforts have been 
bipartisan, they have been enacted in all regions of the 
country, and States have produced very impressive results. 
Youth incarceration has been cut in half in the last decade and 
is now at a 40-year low.
    We recently released a report called Breaking Down the 
Walls showcasing reforms in Texas, California, New York, 
Mississippi, Louisiana, and the District of Columbia. In all 
these States, they substantially reduced their reliance on 
incarceration without compromising public safety. For example, 
in Texas, youth incarcerated in State facilities were shown to 
be 21 percent more likely to be re-arrested and three times 
more likely to commit a felony than youth under community 
supervision. Texas enacted reforms to address this by reducing 
the number of incarcerated youth by more than 60 percent. And 
they expanded community-based alternatives to incarceration. 
More recently, States such as Kansas, Connecticut, Virginia, 
and Georgia to name a few, and Utah, have taken the lead on 
this. For example, Kansas enacted comprehensive reform 
legislation SB 367 last year and as a result, the youth 
incarceration population dropped 40 percent. And Kansas has now 
closed the Larned youth prison.
    In Virginia, the Governor and the Department of Juvenile 
Justice created a plan to transform the juvenile justice system 
and the General Assembly approved budget language in 2016 that 
directs resources from youth prison closures to community-based 
alternatives to incarceration. The Department of Juvenile 
Justice there is creating an array of services for youth in the 
community, and they are closing the Beaumont Juvenile 
Correction facility by the end of this month. And Beaumont has 
been there since 1890.
    So, right now we have a unique opportunity to accelerate 
these kinds of reforms throughout the rest of the country. The 
research underscores this as does the public opinion polling. 
Public opinion polling that we conducted earlier this year 
shows that the public strongly supports rehabilitation over 
incarceration across the country, across face, ethnicity, 
gender, and geography. And also there is strong support for 
reform whether or not you have been impacted by an 
incarceration, you have been a crime survivor. So, it is across 
the board there is strong support.
    So, I would like to close with a couple of recommendations. 
One is Congress can accelerate these reforms in the States by 
providing incentives for States to reduce the use of 
incarceration by helping them downsize, close, and repurpose 
youth prisons. Congress can provide incentives for States to 
shift their focus away from incarceration to evidence informed 
community based non-residential alternatives to incarceration. 
And finally, you can pass the Juvenile Justice and Delinquency 
and Prevention Act and make sure it is fully funded. And I 
understand you already passed the reauthorization this year in 
the House. So, these recommendations would help States reduce 
their over reliance on incarceration while, at the same time, 
increasing public safety. Ultimately, they would contribute to 
reduce State spending on ineffective solutions and reduced 
Federal prison spending. Thank you for your interest.
    Mr. Chabot. Thank you very much. And I will recognize 
myself for 5 minutes. We each get 5 minutes to ask questions.
    I will start with you, Mr. SaintGermain, if I can. What 
would you recommend that we do to reach young people who are at 
risk in falling into that crime and drugs and things that you 
said happened early on, but then ultimately it worked for you? 
You know, thank goodness it did and, you know, now you are 
obviously a very productive member of society and helping 
others to avoid the trap that you fell into. What would you 
recommend we do to have more people move in your direction and 
not go the wrong way?
    Mr. SaintGermain. Thank you, Mr. Chairman, for your 
question. What I would say is that I have, in my young 28 years 
on this Earth, I have never met a young person who wanted to do 
bad. I have met young people who have adapted to the 
circumstances. So, most young people I know, and I believe, is 
they are given opportunities, right? Because a lot of the 
things we are referring to here, some of the issues young 
people face, the bedrock is poverty. And a lot of them are 
growing up in neighborhoods where there are not too many 
opportunities available to them. So, jobs are scarce, the 
educational system is dysfunctional and certainly in some of 
these communities. Some of these young people have folks in 
their lives themselves who are going through the system, who 
are not currently involved in their lives due to mass 
incarceration. Some of them are just basically trying to 
survive on a regular basis.
    So, I believe that any young person, regardless of which 
region of the country they come from, the ethnicity or 
background or gender, if they are put in certain circumstances 
where they have to survive, young people will survive by means 
necessary. So, some of the things I believe Congress can do and 
this committee can do is to fund and incentivize some of the 
programs that we know work for young people, which we have 
talked about here on this panel already.
    So, providing better educational opportunities for young 
people, investing in mental health, providing vocational 
training, giving them opportunities prior to entering the 
system allowing them to grow and make mistakes. And if they do 
enter the system, then still provide the rehabilitative 
measures which they need to propel and move forward and succeed 
out of some of the circumstances they are dealing with.
    So I think, again, some of those things are common things 
that you want for your family, and every member of this 
committee wanted for their family, is a safe home, a job where 
you can provide for your kids, schools that will educate these 
young people rather than pushing them through the school to 
prison pipeline. And I believe that it we provide some of these 
services, which we know to work, as an intervention, we will 
stop a lot of young people from entering the system. Young 
people will make mistakes.
    Mr. Chabot. I am going to have to cut you off because I am 
going to run out of time. But thank you very much. Mr. 
McDonald, let me turn to your next. Indiana appears to be one 
of the only States that has local school districts teaching in 
the residential facilities. How is that working and could you 
comment whether it has had any effect on recidivism rates for 
example?
    Mr. McDonald. It works pretty well. Mr. Chair, thank you 
for the question. And I would have to agree that education is a 
huge, huge impact on the lives of young people who have come in 
with the system. It is, actually, a basis of Indiana that we do 
educate our young people who are in DYS facilities or DOC 
facilities. It works very well for those children that are 
acceptable to the education as well. As far as recidivism 
reduction numbers, I cannot speak to those right off hand. 
Generally speaking, though, education is one of the factors 
that does help reduce recidivism.
    Mr. Chabot. Thank you. I have got about a minute left. Mr. 
Vignati, what would you recommend that Congress doe to help 
juveniles who are at risk of falling into the criminal justice 
system. What has worked on Georgia? What do you think would be 
good for us or nationally to others who may be listening?
    Mr. McDonald. Yes, sir, and thank you for the question, Mr. 
Chair. I would, respectfully, say that you take a page out of 
Georgia's book and look at some of the things that we have done 
by shifting some of our funding from an institutional focus to 
community focus. And focus on things that have been proven to 
work that the panel has talked about. And incentivize those 
types of programming.
    We have been able to protect public safety and still reduce 
our detention population. We have taken 259 beds off line. We 
have provided capacity for these evidence-based services and 
every judicial circuit in our State. And now, we are properly 
assessing risk of youth. So, we are being very thoughtful and 
targeted in which youth we securely detain and confine. And I 
think that is what we have to focus on here. We, as a State, 
were locking up the wrong youth. We have to be thoughtful and 
we are still able to protect public safety by doing that and 
providing the front-end services that the panel has talked 
about.
    Mr. Chabot. Thank you very much. My time has expired. The 
ranking member, the gentlelady from Texas, Ms. Jackson Lee, is 
recognized for 5 minutes.
    Ms. Jackson Lee. Thank you very much. And to the witnesses, 
your testimony will be so helpful, and I hope that this 
committee can begin immediately passing out a number of 
legislative initiatives crafted around what you have offered. 
And I will be offering those legislative initiatives that have 
been introduced so that we can look to specifically trying to 
move forward. I am going to ask sort of a rapid series of 
questions. And if you can be brief in your answers I would be 
very appreciative. Because what you are doing is you are 
building the record. So, thank you so very much.
    Mr. Vignati, you spoke about $90,000, I think, per year, 
per bed. And so, tell us the State value in resources not being 
expended in that way and being expended constructively to 
repair lives.
    Mr. Vignati. Yes, ma'am. Thank you for the question. 
Because we----
    Ms. Jackson Lee. $90,000 for incarceration.
    Mr. Vignati. Pardon?
    Ms. Jackson Lee. You said that was what we would be 
spending if you----
    Mr. Vignati. Yes, ma'am. At that point in time it was 
$90,000 per year per bed. It is now more than $100,000 per 
year, per bed. So, what we have done is by front ending those 
services that we have talked about, we have been able to take 
offline the detention beds that we talked about. We have also 
been able to not build two new facilities that we projected, 
thus saving our State $85 million through 2018.
    Ms. Jackson Lee. So, the lesson is put in more, give them 
the services, and you are saving, steering lives?
    Mr. Vignati. Yes, ma'am.
    Ms. Jackson Lee. Thank you. Mr. McDonald, you mentioned, 
and I think our ranking member mentioned, this formation of the 
brain. But you also in your testimony talked about recidivism 
therapy, but mental health facilities. Could you comment on how 
that has been effective?
    Mr. McDonald. Yes. Thank you, again, for the question. So, 
we do have, through course of our risk assessments and our 
mental health assessments, we have found small populations and, 
actually, the number appear to be at the beginning somewhat 
correlated with what they do in adult facilities. They are 
helping to identify the numbers of children in facilities or 
that are currently in the system that have some sort of 
substance abuse or mental health issues. So, what those are 
helping us do is identify those children, get them the 
treatment that they need, or possibly whether it is in the 
facility or outside of the facility through the stool status 
process. And it is actually becoming more and more effective. 
We are still very early in some of these programs and stages, 
but we do have them and they do appear to be working.
    Ms. Jackson Lee. Do you adhere to the theory that the 
brains of juvenile children are not fully developed as they 
make decisions that may find them in the juvenile justice 
system?
    Mr. McDonald. Me, personally, yes, I do. And I do know, as 
a State, we do often consider those when we do talk about 
juvenile justice initiatives.
    Ms. Jackson Lee. Something that we in the Federal 
Government should consider.
    Mr. McDonald. Yes, ma'am.
    Ms. Jackson Lee. Mr. SaintGermain, how old are you now?
    Mr. SaintGermain. Just turned 28.
    Ms. Jackson Lee. My goodness.
    Mr. SaintGermain. So, I am just getting over the phase 
where I do not make those decisions any more.
    Ms. Jackson Lee. Yeah, but also you will be able to pass 
for quite a young man for a very long time. And I think that is 
good. I look forward to you continuing your education. 
Congratulations to you.
    Mr. SaintGermain. Thank you, ma'am.
    Ms. Jackson Lee. But I need you to express to us the pain. 
Because while you were in, or while you were on the street, you 
saw your peers. And two points that I want to make: we have 
recognition through Kalief and I am delighted; please give his 
brother and family my regards. But, the horror of being 16 in 
solitary confinement. So, as you talk about your pain, would 
you speak about the horrors of being in solitary confinement 
and whether that would be good legislation to eliminate? And 
number two: alternative sentencing. You seem to have gotten it. 
And how do we do that and set the Federal standard so that 
States, and I am going to ask Ms. Ryan, because she has got all 
these examples of dastardly acts, would be more effective in 
treating juveniles?
    Mr. SaintGermain. Thank you. Thank you again, Ms. Jackson 
Lee. I, personally, was very fortunate that I have never 
experienced solitary confinement myself, but I work with a lot 
of young people currently on Rikers Island that are dealing 
with solitary confinement who have dealt with it. Flying, at 
times, I have to sit, you know, in this chair for a long time 
and that really drives me crazy after a certain amount of time. 
So, you imagine a young person being locked in a box, extremely 
small, for 23 hours of the day. Right? A young person who is 
16, 17, and 18 years old have no human contact, which are 
things we know are important to young people's growth. And you 
can imagine what that does to the adolescent brain. How it 
destroys it. A lot of young people I work with who have had 
such experiences, when they come home they are not the same. 
And Kalief Browder, again, sorry to keep bringing up his story.
    Ms. Jackson Lee. Go right ahead for Ms. Ryan.
    Mr. SaintGermain. He was a perfect example of what solitary 
confinement can do to adolescent's brains and young people 
overall. So, I think banning the box and getting rid of 
solitary confinement for young people is extremely important 
and something that is very much needed in order for young 
people to move forward after the system.
    As it relates to an alternative to incarceration, it is 
what basically saved my life and helped me. And again, if we 
can provide young people with the services prior to entering 
the system keeping them with their family in the neighborhoods, 
which we know studies have shown work better for young people 
when they are around families and neighborhoods and community 
based programs that work for them. I think it is the way 
Congress should move forward, and that is the best way to help 
young people, again, overcome some of the challenges by going 
through the system and experiencing it in their regular lives.
    Mr. Chabot. Without objection, the gentlelady has an 
additional minute.
    Ms. Jackson Lee. I thank you. Thank you, Mr. SaintGermain. 
I hope that we will be able to question you again. Ms. Ryan, I 
think what is important about the work that you have done is 
that you have seen the landscape of the United States. We are 
sitting here in a pristine room, and we are hearing good 
things. Let us know how important it is that we deal with 
banning the box, solitary confinement, the recognition of the 
brain, and making the Federal statement through legislation. 
Because what is happening in other States that are not like 
these States here. What you have seen. You gave a whole litany. 
Tell us what you are seeing across the Nation.
    Ms. Ryan. What we have seen, really, is a shift away from 
harsh punishment and towards effective programs that work. And 
so, you have seen a number of States take proactive action to 
do this and those States have reduced the use of incarceration 
and redirected those resources to community-based, non-
residential, evidence-informed programs and services for young 
people. So, what Congress can do, really, is to help accelerate 
those kinds of efforts throughout the country. The kinds of 
things that Mr. SaintGermain. has talked about, that he has 
needed in his life would be the kinds of things that you could 
incentivize through resources from this committee.
    And I think also because so much of the funding is 
literally locked up in institutions you have to close them in 
order to generate savings. Anything that you can do to 
repurpose and downsize would be helpful.
    Ms. Jackson Lee. Thank you.
    Mr. Chabot. Thank you. The gentlelady's time is expired. 
The gentleman from Texas is recognized for 5 minutes.
    Mr. Ratcliffe. Thank you, Mr. Chairman. I appreciate all 
the witnesses being here today. Obviously, this is a very 
important subject, but I do want to make sure that we are not 
conflating the issues at the Federal level and the State level 
and that we are talking about the same things. And I went to 
the Bureau of Prisons website, and it appears to me that there 
is only a handful, I think less than 20, juveniles that are 
currently in Federal custody. Mr. Vignati, do you know if that 
is correct?
    Mr. Vignati. Yes that is correct. I think what we are 
speaking about are the juveniles that come before our States 
and that number is a lot higher.
    Mr. Ratcliffe. Yeah. Again, I just want to make sure that 
we are clear and, you know, it appears that those that are in 
Federal custody are juveniles that have committed violent 
offenses and have, frankly, a history of not responding to 
interventions and preventative measures in the community. Is 
that your understanding?
    Mr. Vignati. I think right now in Georgia we have one youth 
that I am aware of that has a Federal charge and that we are 
actually housing in one of our secure facilities. So, it is a 
very rare occurrence that we have a Federal youth that comes 
before us. I will not speak for the other States, but in my 30-
year career, it has only happened a handful of times.
    Mr. Ratcliffe. Mr. McDonald, do you agree with that?
    Mr. McDonald. To my knowledge yes. I do not know off hand 
of any juveniles in Federal custody in Indiana.
    Mr. Ratcliffe. Okay, very good. So, given that nearly all 
of the population we are talking about here, with respect to 
juveniles, are in State institutions, I want to drill down a 
little bit on what the role of the Federal Government should 
be. So, beyond the provisions of the Juvenile Justice 
Delinquent Prevention Act, I want to talk about what the 
Federal Government should be doing to assist States to take 
action and to innovate in this area. I will start with you, Mr. 
Vignati.
    Mr. Vignati. Well, what I will say is that the JJDP Act was 
the seed for a lot of our reforms in Georgia. While the Federal 
funds have gone down over the years and we have much more 
significant numbers of State dollars, we were able to move 
quickly and effectively because of the support from JJDP and 
those Federal dollars. Years of planning took place so we were 
ready to roll when we wanted to reform.
    Mr. Ratcliffe. Okay. So, it sounds like it may have been 
the seed for that. But are there challenges that you, at the 
State level, are facing in complying with the core 
requirements?
    Mr. Vignati. Georgia has been in compliance with the core 
protections for years. There were some concerns when they 
rolled out some possible changes, but we are in compliance at 
this point.
    Mr. Ratcliffe. So, were there challenges or any issues that 
you had in complying with the disproportionate minority contact 
requirement?
    Mr. Vignati. For the proposed changes?
    Mr. Ratcliffe. Yeah.
    Mr. Vignati. I think that was almost every State, yes, sir.
    Mr. Ratcliffe. Would you agree with that, Mr. McDonald?
    Mr. McDonald. Yes, sir.
    Mr. Ratcliffe. Okay. Mr. McDonald, it appears that Indiana 
is one of the few States that has local school districts 
teaching in residential facilities. What kind of curriculum are 
these juveniles receiving and can their credits be transferred 
to schools when they leave the facility?
    Mr. McDonald. Yes. Yes, we are. First of all, thank you, 
again, for the question. So, the students in the facilities 
receive predominately essentially the same education that a 
child would receive in a public school system: math, reading, 
writing, science, that kind of stuff. One thing that I was not 
able to address in my previous testimony is that our DYS also 
is partnered with our Department of Workforce Development to 
help get some juveniles some actual vocational training, so 
those students that are eligible to receive that kind of 
training. So, they can build a job skill while they are 
potentially in a facility to help further themselves when they 
get out.
    Mr. Ratcliffe. Well, I will let you follow up on that, Mr. 
Vignati, because I am curious from Georgia's perspective as 
well, but I always wonder about whether there is any useful 
data that comes up from these types of initiatives with respect 
to recidivism rates. So, can you shed some light on that? Have 
you been able to collect any data with respect to that?
    Mr. Vignati. So Georgia, our Department of Juvenile Justice 
is the 184th school district in the State. So, our youth earn 
school credits when they are with us and can graduate and get a 
diploma. The diploma is from the Georgia Preparatory Academy. 
Youth are able to earn not only high school graduation 
certificates, they are able to earn GED. They are also able to 
earn technical college certifications, and, if they qualify, 
they can also earn college credit. So, last month we were able 
to graduate over 50 youth from our Georgia Precatory Academy. 
The vast majority of youth are going to come back to the 
communities, and if they are on target with their school, they 
are able to get a job; they are able to enter either back into 
their education seamlessly or into the workforce. So, we view 
that as a positive.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Michigan, the ranking member of the full committee, Mr. 
Conyers is recognized for 5 minutes.
    Mr. Conyers. Thank you, Mr. Chairman. Excuse my absence 
here. But I wanted to ask Ms. Ryan this question. What is the 
importance of the four core requirements for Juvenile Justice 
and Delinquency Prevention Act funding?
    Ms. Ryan. The importance of the four core requirements 
cannot be understated enough. The act has been in place since 
1974, and it has helped States shift away from putting kids who 
should not be in the system at all away from the system. So, 
kids who are status offenders, runaways, cannot be detained. It 
has also ensured that kids are not placed in adult facilities. 
Over the years, there were two core requirements at the 
beginning, now there are four and I think those have helped the 
States really move away from this sort of punitive system. They 
have supported a minimum floor of requirements that, in fact, I 
think almost all States are in compliance with.
    Mr. Conyers. Thank you. Mr. Vignati, in your statement, you 
referred to the success of using a variety of cognitive 
behavioral intervention programs with young offenders. Could 
you explain to us how these were developed if you know, and how 
you determined which programs to use for each juvenile?
    Mr. Vignati. Yes, sir. Thank you for the question. I do not 
know exactly how all the different programs were developed, but 
I do know that over time there have been a multitude of 
research studies to show that they have been effective with 
this population of risk. And I think that is the thing to think 
about. When we talk about youth, it is important to look at 
what their risk level is and what their need level is. In 
Georgia, we have a validated risk assessment and a validated 
needs assessment that helps us determine which youths should go 
into those programs and what is the right fit for those 
programs.
    Mr. Conyers. Okay, Mr. Vignati, in your statement, you 
refer to the success of using a variety of cognitive behavioral 
intervention programs. Oh, okay. Excuse me, sir. I am going to 
switch to Mr. Devon McDonald.
    Mr. McDonald. Yes, sir.
    Mr. Conyers. In your statement, you state that as of 
December 2016, the Indiana Department of Corrections, Division 
of Youth Services began referring all of its high school and 
students in DYS facilities to Indiana's Department of Workforce 
Development. Could you explain to us how this works? The 
programming that is then applied to these young people and the 
goals of the program?
    Mr. McDonald. Yes. So, it is essentially just that. Our DYS 
is our Department of Youth Services within our Indiana 
Department of Corrections. And so, they have partnered with 
what is called DWD in Indiana, or the Indiana Department of 
Workforce Development, to sponsor the Job for America's 
Graduates Program in our facility.
    So, it is just that. Students that are in our facility that 
earn their degrees or looking to move into the workforce. They 
go into these programs, or DWD sponsored programs that are 
somewhat, like, vocational programs to learn job skills, job-
training skills, so they can, again, be productive members of 
society. So they are actually using their time in incarceration 
to build some sort of skill that they can then use outside of 
an institution.
    Mr. Conyers. Thank you very much. Mr. Chairman, I yield 
back my time if there is any left.
    Mr. Chabot. Thank you very much. The gentleman yields back. 
Thank you. The gentlelady from California, Ms. Bass, is 
recognized for 5 minutes.
    Ms. Bass. Thank you. Thank you, Mr. Chair. And let me take 
a moment to thank our ranking member on this subcommittee and 
all of the witnesses for your testimony. And more important 
than your testimony, it is your work and the commitment to 
changing this system. I really appreciate all that you have 
done, and I look forward to reading more about it.
    But I did want to take some of my time to raise a question 
that I think at some point needs to be raised in this country. 
Which is at some point, in the 21st century, we need to ask the 
question as to why we even have a juvenile justice system? All 
that science has learned about brain and child development, all 
we have learned about behavior, intellectual and learning 
disabilities, all that we have learned about 
disproportionality. Now, I do not know about your States, and I 
am very proud about California. We have made a lot of 
significant advances in California. But even in California, as 
in the rest of the country, and tell me if I am wrong, we need 
to acknowledge that the juvenile justice system exists for one 
part of our population. It exists for poor people.
    When rich kids get into trouble, and I have seen it 
personally numerous times, there is a whole other system for 
them. We care about them. They are troubled teens. We send them 
to therapy. We understand they have problems at home. We do not 
criminalize wealthy people. We do not. And the bottom line is 
that if you are able to afford an attorney, then, you know, 
that is when you get, you know diverted into services. We need 
to examine our system and acknowledge the fact that there is a 
disproportionate number of foster youth that are in the system 
and that foster youth are not allowed to be normal teenagers. 
Normal teenagers can be obnoxious. When our normal teenagers 
are obnoxious, we deal with it. When foster youth are 
obnoxious, they get incarcerated.
    So, for example, if you were in a group home and you get 
into a fight in that group home, they call the police and you 
go to jail. If two siblings at home fight, you do not put your 
kids in jail for that. Oh, and by the way, when foster youth 
are criminalized when they are teenagers and that is when we 
criminalize them, we call them crossover youth. We have a 
special term for them. We like them when they are in the 
dependency system.
    When they go to the juvenile delinquency system, we do not 
like them because in our country, we do not like other people's 
teenagers. That is one of the fundamental problems. And once 
you are caught up in the system it is extremely difficult to 
get out. Now, in California, until recent time, if you 
committed a felony as a juvenile, that counted as a strike. So, 
you could essentially have two strikes as a juvenile and then 
do something wrong when you are 21, 22, and you are sent away 
for life.
    I have been with young people who are waiting to go on 
trial and one of the problems in our country is that they do 
not have legal representation. So, I have been with young 
people who meet their attorney 5 minutes before they go into 
the courtroom. And that attorney has a stack of cases and walks 
in, pleads them out, and then they go on to be incarcerated. 
So, to me, I find it so ironic, because just the other day we 
passed 5 bills to improve the child welfare system.
    And I view the system, frankly, as State-sponsored child 
abuse, because I do not see how we can all come together around 
dependency and then do what we do around delinquency, 
especially when we need to acknowledge that the majority of 
these children actually started in the child welfare system, so 
State-sponsored child abuse, life without possibility of 
parole, solitary confinement, juveniles in adult prisons, and 
what we did in California, when we sentence a juvenile to an 
adult prison we kept them in solitary so they did not 
intermingle with the adult population.
    So, how does that work? I think we need to look at the 
costs. The thing about child welfare and this system is it does 
not necessarily need a whole lot of money. I know that you guys 
need more money for programs, but you just said, Mr. Vignati, 
that $100,000? $100,000 a year for a bed? We have the money to 
provide the services that are needed to keep children out of 
the system.
    But I think what is needed in our country is political will 
and political courage. Because the bottom line is that elected 
officials vote for bad legislation like this because we do not 
want to be seen as soft on crime because we do not want it used 
against us when we run for reelection. That is the real bottom 
line. So, political will and political courage is what is 
needed.
    So, my question to you in the remainder of my time, and if 
the chair would not mind allowing you to answer, I wanted to 
know what policies you think might be needed to move our 
country in the direction of eliminating the system? And let me 
just note, not everybody in the world locks up children. This 
is a feature of the United States. Now, there is other 
countries that do it, but there are some countries that do not 
believe in a juvenile justice system. So, what kind of policies 
do we need to move our country away from this? Do you mind, Mr. 
Chair?
    Mr. Chabot. The gentlelady's time has expired, however if 
she would direct the question at one of the witnesses so they 
could answer, and we will give them the time to answer.
    Ms. Bass. Okay.
    Mr. Chabot. But not all of them.
    Ms. Bass. Ms. Ryan? I do not know who to direct it to.
    Mr. Chabot. Thank you.
    Ms. Ryan. We need to do a number of things as you 
suggested. We need to make sure kids are never put in the adult 
criminal justice system, never placed in adult jails or 
prisons, we need to end the worst kinds of abuses that occur in 
the juvenile system, like solitary confinement. But frankly, we 
need to get rid of the signature feature of the juvenile 
justice system, which is incarceration. That is where we spend 
most of the money. That is where most of the effort goes and as 
you have heard today, when we shift away from that we can 
actually serve youth in their community.
    And what we hope is that of the $5 billion that gets spent 
annually on placing kids in incarceration settings, that that 
money can be shifted to serve not only kids as alternatives to 
incarceration in the juvenile system, but can serve kids in the 
community so they never have to touch the system in the first 
place.
    Mr. Chabot. Thank you very much. The gentlelady's time has 
expired. The gentleman from Louisiana, Mr. Richmond, is 
recognized for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman, and let me thank the 
witnesses for coming. And let me thank Ms. Ryan for noting the 
juvenile justice reform that we did in Louisiana when I was in 
the Louisiana legislature, and we were able to pass the 
Missouri Model, shut down Tallulah and a number of other 
institutions where we housed youth.
    Let me just start with the basic goal, and I think it was 
Mr. Vignati mentioned it first, that, you know, we want to 
reduce the risk to public safety. But, at the same time, we 
want to reduce the detention population, and the good thing is 
they both can be done at the same time if done in a very small 
way. So, the first question I will ask is just a straight yes-
or-no and you all can answer it. Do you agree that we have 
reached the point of diminishing returns? That every dollar 
that we spend on incarcerating a youth actually makes our 
communities less safe? Mr. Vignati?
    Mr. Vignati. Can I do a yes-and?
    Mr. Richmond. Sure.
    Mr. Vignati. Yes, and we have to continue to be more 
thoughtful and more targeted. I have given 30 years of my life 
to this and we are way better than we were in '87, and I hope, 
for my children, we will be way better next year and 30 years 
from now.
    Mr. Richmond. Mr. McDonald.
    Mr. McDonald. Again, I would have to agree with Mr. 
Vignati. I do not think it is quite just that clear; I think, 
sometimes and in some situations, these lend themselves to some 
treatments that may not otherwise be afforded to a juvenile. 
So, I think, you know, heavy on risk and needs and mental 
health assessments, I think, are kind of, really, the way to 
combat some of these issues.
    Mr. SaintGermain. I say yes. Again, I am a perfect example 
of that. I think if you invest on the front end, you provide 
opportunities as Ms. Bass just talked about, to young people, 
you stop criminalizing poverty, then you are going to have 
successful young people who turn out to be taxpayers instead of 
tax burdens. So, my answer is yes.
    Mr. Richmond. And Ms. Ryan?
    Ms. Ryan. Yes. There is overwhelming evidence that 
incarceration does not work.
    Mr. Richmond. And I am not sure if you all are familiar 
with the Youth Promise Act, which has been traditionally 
introduced by Bobby Scott. But it shows that similar prevention 
programs in Pennsylvania, for example, for every dollar that 
they spend on prevention they saved $5. And what we need to 
start to do in this Congress is just stop looking at things as 
simply about spending. Because if you look at just addition and 
subtraction, that is a very elementary way of running a 
government. We really should look at return on investment and 
the cost benefit analysis. So, if we get $5 for every $1 we 
spend on prevention then maybe we should spend a lot on 
prevention so that we can reduce the incarceration spending 
tremendously.
    Mr. SaintGermain, let me ask you a question. This goes back 
to my days in the Louisiana Legislature when I was chair of 
judiciary. And solitary confinement we found is just bad. Old, 
young, it does not matter. It is just bad. But I had a hearing 
where I only invited in formerly incarcerated people. And I 
asked them what were their biggest barriers to re-entry. And we 
found out a bunch of interesting things because we were 
actually talking to people who reentered.
    Mr. SaintGermain. Right.
    Mr. Richmond. And one of the things we learned is that we 
released them from our State penitentiary with a bus ticket and 
$10. And then, when they get home they are required to have a 
State ID, which costs $12. So, they come out upside down and 
violating the law. So, what we did, was we created a program 
where we give them their ID before they go home.
    Mr. SaintGermain. Yeah.
    Mr. Richmond. And we release all and waive all their 
traffic fines and fees and all of that. What would be those 
things for our 100,000 or so youth that are re-entering every 
year? What are those things that to you are common sense, but 
to us at 10,000 feet in the air we may not see? What are those 
simple things we can do for our youth?
    Mr. SaintGermain. Mr. Richmond, thank you. And I think you 
have answered that question you asked. Young people who are 
leaving the system, a lot of times we send them home and say, 
``Good luck.'' Right? We have not prepared them for life in the 
streets. This very same things that caused them to enter the 
system, which we have talked about, economic reasons and other 
issues, things that historically has been part of this Nation, 
we pushed them out and said, ``Go ahead and make it on your 
own, right?'' So, they do not have the opportunities and when 
they come back home they are marked from society. They have to 
fill out the box saying that they were incarcerated, which 
denies them the services.
    So, if you take a person, right, and you incarcerate then, 
and then you put them back in the streets, and then you tell 
them, ``Good luck,'' knowing that they have records and there 
is a society that is not so welcoming to them, then, obviously, 
naturally people have to survive. We are all animals in a way, 
right? We will find a way to survive. Any member of this body 
right now, if I put them in certain circumstances, they will 
find a way to adapt and survive. So, young people, when we push 
them through the system and not give them the proper resources 
for re-entry, mental health, vocational training; the ID is a 
very small thing. Things they can use to travel and look for 
jobs and giving them the career opportunities, which we fight 
for ourselves, then they are more likely to fail. And those 
things are obvious things.
    So, I think investing, again, in re-entry and giving these 
young people concrete services is what is going to help them 
not to re-enter the system, reduce the recidivism rate.
    Mr. Richmond. Thank you. And I see that my time is expired. 
I would just encourage Mr. Chairman, if you would, to think 
about having a hearing on all the barriers people face once 
they get back. Because it becomes a self-fulfilling prophecy. 
In Louisiana alone, there are 300 jobs, or professions you 
cannot enter if you have formerly been incarcerated. And if you 
cannot get a job then you go back to the life of crime. So, if 
we could think about that, I would be very grateful if you 
would entertain that. Thank you, Mr. Chair.
    Mr. Chabot. Thank you very much. Since I am the acting 
chairman today I will direct the staff to talk to Mr. 
Sensenbrenner about that. So, the gentleman's time has expired. 
The gentleman from New York, Mr. Jeffries, is recognized for 5 
minutes.
    Mr. Jeffries. Thank you and I thank the distinguished 
acting chair for your leadership and the ranking member for her 
tremendous involvement in this important issue and her vision 
and foresight in helping to push this forward. I also want to 
thank the distinguished panelists for your presence here today, 
and particularly Jim SaintGermain, who I have the privilege of 
knowing from back home in Brooklyn. We are all extraordinarily 
proud of your story, your effort, and the transformation that 
really is a beacon of light for so many different folks.
    I want to ask the chairman unanimous consent to enter into 
the record a series of writings from some of our Nation's top 
conservative organizations in support of criminal justice 
reform as it relates to expunging the records of young people 
who have engaged, perhaps, in a minor infraction. And----
    Mr. Chabot. Without objection, so ordered.
    Mr. Jeffries. Thank you. We, of course, want to make sure 
that these are young people who do not get marked with a 
scarlet letter and adversely impacted throughout the balance of 
their life. So, thank you, Mr. Chairman.
    Let me start with Mr. SaintGermain. In terms of your own 
personal story, you indicated in your written testimony and you 
amplified that to some degree in your testimony here today that 
you were put in a very tough circumstance upon your arrival 
here from Haiti and a challenging environment, and you were 
heading in one direction. And as a result of, you know, perhaps 
the fortunate accident of history, were not put into the adult 
criminal justice system because the infraction that you engaged 
in occurred slightly before your 16th birthday. But then, that 
set in motion a series of things that led to what was a 
phenomenal transformation and you being able to bring to life, 
obviously, your natural talent and ability.
    I would be interested in knowing what, you know, what was 
the single most important thing in helping you to shift 
direction and to become the person that you have become today?
    Mr. SaintGermain. Thank you, Mr. Jeffries. And it is a 
pleasure of knowing you over the years, actually. I met Mr. 
Jeffries when I was just 18 years old working in a supermarket 
literally a few months after exiting the juvenile justice 
system at Key Food right on 7th Avenue and Carroll. And thank 
you for all the work you have done over the years.
    It is really hard to pick one thing. Since I have to, I 
would say that caring people who were in the position to show 
me that there was a different side of life. Basically, 
opportunities and exposing me to a side of life, which I was 
not accustomed to. As you know, 10 minutes away from Crown 
Heights where I grew up, to Park Slope, Brooklyn, it was a 
totally different lifestyle, right? Things are different, the 
neighborhood looks different, opportunities are available. So, 
having those opportunities available to me realizing that it 
was more to me being just an athlete or a musician, made a huge 
contribution to my life to where I am today. So, I would say 
that just exposure to opportunities and caring hearts.
    Mr. Richmond. Well, thank you. Frederick Douglas once said, 
``It is easier to build strong children than it is to repair 
broken men.'' And, certainly, I think we would all take care to 
invest in opportunity and prevention as opposed to 
incarceration.
    I want to move to Mr. McDonald. In terms of your own 
experience, could you speak for a moment about the importance 
of making sure that if there is a minor infraction that a young 
person engages in that there is an opportunity to be able to 
overcome that with a rehabilitative re-entry focused approach 
as opposed to a punitive approach that may result in someone 
spiraling down a path that it will be difficult to recover 
from?
    Mr. McDonald. Yes. You know, from a State perspective, 
there is a couple things that, you know, you mentioned 
expungement in your early remarks. As a State, we are actually 
in the process here in a couple of weeks, July 1, our 
expungement process is being revamped a little bit for 
juveniles. Expungement, I think, would be a great thing for 
some young people who have committed fairly minor acts to kind 
of wipe the slate clean. It gets rid of the stigma, so to 
speak, of I have a juvenile record and they carry that with 
them whether anyone else may know about it or not. But it 
personally impacts that child.
    As far as re-entry goes, you know, into society, that is 
actually one of my recommendations that I submitted in my 
testimony, is that reentry services is something that is of 
great need. I do not want to speak for everybody else, but 
probably across the Nation.
    Some of the programs that we provide in allowing, you know, 
through our JDAI and providing those types of services or 
rehabilitative types of services that you are talking about, 
substance abuse is a big issue. In Indiana, it is everywhere 
and we have identified in some of our juvenile populations that 
our substance abuse problems with our juveniles rival those 
that we have of adults. And so those types of services are 
great. Education, providing the basic necessities: food, water, 
shelter, things like that are huge impacts on recidivism.
    Mr. Richmond. Thank you. My time is expired and I 
appreciate your testimony.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired. The gentleman from Maryland is recognized for 5 
minutes.
    Mr. Raskin. Mr. Chair, thank you very much. I also wanted 
to salute you and the ranking member for your leadership in 
bringing us together on this very important subject. Mr. 
SaintGermain, let me start with you. A quick question about 
education in addition to the other failings of incarceration as 
a strategy for crime reduction and harm reduction. It does 
interfere with people's education, does it not? And is that not 
a huge problem, the opportunity lost that we have when we are 
putting people behind bars?
    Mr. SaintGermain. Mr. Raskin, I will give you another 
personal example. When I graduated from my GED and wanted to go 
to college, one of the things I had to fill in the box was 
whether you have been convicted of a crime. And, basically, 
answering yes means that I would have no opportunity to get 
financial aid. Now as a young man, 18-years-old, trying to 
change my path, trying to get an education in which we know is 
the greatest equalizer; if I was charged as a 16-year-old where 
I had to answer yes in that box alone that would have 
exterminated my opportunities right there and then to move 
forward in life, and I would not be the person I am today. So 
yes, it is very much important to give young people 
opportunities to seek the education which they need, which we 
know as adults will help them lead a life of success. So, that 
is indeed true.
    Mr. Raskin. And thank you for what you are doing now to 
promote education among so many young people where you live.
    Ms. Ryan, I am drawn to the points that you are making 
about the failures of incarceration and alternatives. The 
problem, politically, is one of violence in society generally. 
We live in a very violent society. We were hit by it here in 
Congress last week when one of our colleagues was shot and many 
of them were attacked in an episode of gun violence. But people 
think, well, if we do not have incarceration, we are not going 
to be able to engage in the reduction of violence. And I just 
wonder if you have any thoughts about that. How we should think 
about the problem of violence without resorting immediately to 
incarceration?
    Ms. Ryan. Well, I think that the data shows that when you 
incarcerate a child in the juvenile justice system, you are 
going to greatly increase their likelihood of reoffending, and 
you are also going to be increasing the likelihood that they 
will end up being in the adult criminal justice system. So, you 
are actually increasing violence by placing kids in 
incarceration. So, the alternatives, I think some of the ones 
that have been discussed here today are ones that have been 
shown to reduce recidivism and also to help young people to 
grow and thrive.
    So, if you look at a lot of the alternatives that could be 
placed in the community that are evidence-informed and that are 
an array of alternatives, so it is not a cookie cutter 
approach; it is not each kid gets this exact thing. It is 
really individualized to that young person. So, for example, a 
program like the Youth Advocate programs, it is very high-
intensive wrap-around services for young people. It is 
individualized. It has been proven to be very, very successful. 
And they are in a number of States around the country. So, if 
you lift up programs like that, ones that really help young 
people to turn their life around, you are going to be 
increasing public safety and helping that young person at the 
same time.
    Mr. Raskin. Thank you. And then, finally, for Mr. McDonald 
and Mr. Vignati, what is the role that unaddressed or under-
addressed mental health problems are playing in problems of 
juvenile delinquency and crime? And what role do mental health 
programs and treatment play in dealing with the issue?
    Mr. Vignati. Sure. Thank you for the question. 
Approximately 50, 55 percent of all youth that come to our 
juvenile justice system in Georgia have a diagnosed mental 
health issue. So, that is something that we have seen grow over 
the years. If those youth are able to access the appropriate 
treatment before they come to us, then, obviously, that helps 
benefit us all.
    Mr. Raskin. But right now, sorry, just to be clear, that is 
not happening. The kids arrive without having had any formal 
mental health intervention.
    Mr. Vignati. That is prior to them coming to us. So, when 
they come to us, they have that issue. So, I think in a 
community, mental health is an issue, at least in our State, 
that needs to be addressed.
    Mr. McDonald. Mental health, I think, can be under-
addressed, especially in juveniles who maybe have not actually 
approached the system. But that is where, you know, like I 
said, the risk assessments that we use help identify those 
issues. And, to echo what Mr. Vignati said, is we have a large 
segment of our population in our juvenile populations in our 
facilities that do have some sort of learning disability, or 
mental health issue, substance abuse issue that needs to be 
addressed. And if those are successfully addressed at that 
time, can have greet impacts on recidivism and public safety.
    Mr. Raskin. I yield back.
    Mr. Chabot. The gentleman's time is expired. Thank you very 
much. The gentlelady from Alabama. We want to apologize for 
missing her the last time around, but is recognized because we 
know she has a particular interest in this area, children and 
helping them. So, we apologize and she is recognized for 5 
minutes.
    Mrs. Roby. That is okay. That is okay. Thank you so much. 
Thank you all for being here today.
    Ms. Ryan, your Youth First initiative literature, you 
define youth incarceration as any place where youth's liberty 
is deprived. And you include in that not only residential 
centers or juvenile correctional centers, but also places like 
wilderness camps and youth academies, and foster homes. And so, 
in an effort for me to try to understand your perspective, what 
do we do with juvenile offenders who come from homes where they 
have no supervision or where their parents encourage criminal 
behavior, like dealing drugs or carrying weapons? What would be 
the appropriate place for these juveniles that do not count as 
your definition of incarceration?
    Ms. Ryan. It really depends on the individual situation, 
but there are alternatives like independent living. You know, a 
young person should not be locked up or taken out of their home 
if they have high need, but not high risk, right? So, if they 
have high needs, but they cannot go home, there is an 
independent living type program which is a program in the 
community where a young person can live in an apartment and 
gets workforce supports and educational supports. So, there is 
options like that that would not be considered incarceration, 
but that would help that young person to----
    Mrs. Roby. So, I mean, what age are we talking here where a 
youth would live on their own? I am just trying to understand. 
And where do these programs exist?
    Ms. Ryan. So, a number of States have independent living 
programs as part of their juvenile justice programming. It is 
usually youth between 16- and 19-, 20-years-old because youth 
can be in the juvenile system in most States up until their 
21st birthday.
    Mrs. Roby. How does the supervision work in an independent 
living situation? I mean, who is----
    Ms. Ryan. Usually, the youth have a caseworker and, 
oftentimes, that they have programming supports that they go 
to. They are helped to find a job. They are often in school at 
the same time as well. So, it is very sort of wrap-around 
intensive types of supports for young people because those 
young people are going to be living on their own after that at 
some point anyway. So, this is really kind of graduated step.
    Mrs. Roby. Would you agree that there are some 
circumstances where a juvenile should be detained where there 
have been violent crimes committed?
    Ms. Ryan. You know, there may be some youth who pose a very 
serious risk to public safety. It is a very, very, very small 
number when you look at their crime data. And they may need 
secure care for a period of time. And if that is the case, that 
kind of care needs to be therapeutic, it needs to be very 
small; it needs to be close to that youth's home and community 
so that they can access those kinds of supports.
    Mrs. Roby. And so, this question might be for any of you to 
answer: no child should ever be abused. It is absolutely 
appalling that there is physical and sexual abuse occurring in 
locked juvenile facilities. So, I guess for any of you, are you 
seeing States take measures and protections to ensure that this 
type of abuse does not occur? And, what are they doing? And 
what do you propose is done to prevent this appalling abuse?
    Mr. SaintGermain. Thank you, Mrs. Roby. I think States are 
taking measures, but I believe, as Mr. Ratcliffe was referring 
earlier, in terms the Federal Government not really having such 
a role in the lives of young people in the juvenile justice 
system. I think the Federal Government can incentivize certain 
reforms, right?
    So, for example, at Rikers Island, we are putting cameras 
in certain places that did not have them before. We are putting 
accountability measures in place where guards and other folks 
violate young people's rights to hold them accountable. So, I 
think States are moving towards that direction, but the Federal 
Government, who has the power of the purse, I think, can 
certainly help States to get there faster.
    Mrs. Roby. Anybody else want to weigh in?
    Mr. Vignati. What I have noticed over the past several 
years is that PREA, the Prison Rape Elimination Act, has had a 
huge impact on making juvenile facilities safer both in Georgia 
and in other States. So, I think there is an impact that you 
have seen there not only in the juvenile system, but in the 
adult correctional system. Are we where we need to be? Maybe 
not yet, but I think we are headed in the right direction 
because of that legislation and the compliance of the States.
    Ms. Ryan. I am glad you mentioned PREA, because that is a 
really good point. I would also say that when you have a 
custody-type situation where a child is in a facility, an 
institution, there is often abuse. And so, one of the things 
that you could do would be to incentivize States moving away 
from institutional settings, particularly the large kinds of 
settings. And almost every State has one of these kinds of 
institutions. We actually have a list on our website if you are 
interested.
    Mrs. Roby. Okay. Thank you all again for being here. We 
appreciate it. I yield back.
    Mr. Chabot. Thank you. The gentlelady's time is expired. I 
will now go to a second round for those that have additional 
questions or are so inclined. We will recognize the ranking 
member, 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I think 
I am going to take this opportunity to thank my members who 
asked such important, provocative questions and provided great 
insight to Congresswoman Bass. I want to join the aspirational 
goal. I would like to say it is one that we could have for 
tomorrow, which is to question and maybe remove this structure 
of a juvenile justice system. I do not know if we advance if we 
say juvenile restoration and rehabilitation, but something that 
is uplifting and does not craft them as participants of the 
criminal justice system. We recognize that young people and 
their undeveloped brains have been engaged in violent acts. And 
we recognize that you all are smart enough to deal with that. 
The question is how do we do it?
    So, Ms. Ryan, I want to, and then I want to submit a number 
of things into the record. I want to pointedly, I think when 
you answered my question you were upbeat. What I am trying to 
ask, because I do believe as Mr. SaintGermain has said, there 
is a vital role for the Federal Government. And one of those 
roles is to address and pull back the sore that the larger 
percentage of those incarcerated are Hispanic and African-
American youth. Plain and simple. So, the question is what is 
the percentage of the States that have not moved to that point? 
We know that there are those who are reckoning, but there are 
those that are not. So, we have got 50 States; where are we in 
that scheme?
    Ms. Ryan. That is a great question. I mean, when you look 
at the reforms that have happened around the country with youth 
incarceration going down, what we have actually seen is racial 
and ethnic disparities going up. And so, that the reforms are 
not benefitting all youth equally. And so, States need to 
redouble their efforts to reduce racial and ethnic disparities 
in the juvenile justice system. And, really, to remove the 
aspects of the juvenile justice system that mirror the adult 
system, because the juvenile system was created as an 
alternative to the adult system, but there are aspects of it 
that mirror the adult system.
    Ms. Jackson Lee. So, if you had to look at 50 States and 
say we have got 30 of them, 20 of them going full steam ahead, 
but we have got others. So, can you sort of give us where we 
are with the States moving toward that more positive thinking?
    Ms. Ryan. I mean, I would say that, my colleagues might 
disagree with me, but I think that States still have a long way 
to go. I cannot hold up one specific State and say, ``This is 
the model.''
    Ms. Jackson Lee. They are not at a 50-State level where all 
of them are doing juvenile justice reform.
    Ms. Ryan. Right. A lot of States are engaged in juvenile 
justice reform, but, only, I would say roughly a quarter of 
them are really dramatically pushing the envelope here. And I 
think that all of them still have a long way to go. Because no 
State has rejected the youth prison model and approach and 
every State has documented information racial and ethnic 
disparities. So, and that is something that the Department of 
Justice actually certifies.
    Ms. Jackson Lee. Yeah, let me make sure. You mention on 
federal initiative, and PREA is absolutely outstanding; I am 
glad it was mentioned. But you mentioned the Juvenile Justice 
Bill that has gotten through, but we are also working, because 
we are in the judiciary committee, to deal with the Juvenile 
Accountability Block Grant Program, which is H.R. 68, which is 
passed bipartisan last session here. And that goes to the 
Justice Department, which can have a real impact on States that 
have not moved yet. We need to move our Justice Department with 
this legislation for best practices and giving money to States 
and incentivized groups to do best practices. Would that be a 
great addition as well?
    Ms. Ryan. Yeah, that would be a fantastic addition, because 
I think that the Federal Government can play a role as 
incentivizing States to take the right path. And what you have 
seen here today are there are a number of States moving in that 
direction, but we need to accelerate that pace of reform.
    Ms. Jackson Lee. Mr. SaintGermain, very quickly, you are 
living it every day. You are in New York, but do you see the 
disparate treatment of Hispanics, African-Americans, Haitians, 
I know there is a variety of individuals. And how do we cure 
that, because we want them to be contributing? And what is your 
thought about, you know, sort of eliminating this thing called 
the juvenile justice crime system.
    Mr. SaintGermain. Mr. Vignati and I, earlier, were talking 
about States wanting to do the right things and move towards 
the right direction. But, the number one question that always 
comes up is, ``Who is paying for it?'' Right? Because we 
understand that some of these prisons and mass incarceration 
overall provides an economic opportunity in certain communities 
that do not necessarily look like the communities in which the 
young people are coming from which are majority African-
American and Hispanic youth. So, that is certainly one of the 
things we have to deal with.
    It is not just within the juvenile justice system, but 
throughout this Nation in general. Because the politics of fear 
contribute to the lack of reforms and progress which we need to 
see in the system.
    Mr. Chabot. The gentlelady's time is expired. Did you have 
documents that you want to put in the record?
    Ms. Jackson Lee. I will wait until after. Are you?
    Mr. Chabot. I am going to go next and then.
    Ms. Jackson Lee. Yeah. I will wait at the end.
    Mr. Chabot. Okay. That is fine.
    Ms. Jackson Lee. Thank you.
    Mr. Chabot. I will recognize myself for 5 minutes. Ms. 
Ryan, I did not get to you in my first round, so I will go to 
you first if I can. Tell me if you agree or disagree with the 
statement that I am going to make now: there are some juvenile 
offenders, because of the nature of their crime, or what they 
have done, do need to be incarcerated to protect other youth or 
to protect the public in general. Would you agree with that or 
you disagree with that?
    Ms. Ryan. What I would say is that it is not necessarily 
dependent on the offense that they committed; it is really 
their risk to public safety. And so, there are very few youth 
who pose a serious risk to public safety, and for those youth, 
they may need secure care for a period of time. What we are 
saying is it should not look like incarceration the way that, 
you know, these youth prisons look like.
    Mr. Chabot. When you say, ``very few youth,'' what are we 
talking about percent-wise of those that are in the system now?
    Ms. Ryan. It is probably less than 1 percent of the youth 
who are in the juvenile justice system. If you look at the FBI 
crime data, you will see the kinds of offenses that youth have 
committed. But again, I think that is just a proxy for 
potential risk that youth might engage in. So, you want to 
actually not incarcerate or detain a young person just because 
of the offense. You want to look at the risk to public safety 
and there is a variety of factors.
    Mr. Chabot. Let me follow up. Let me ask you about one of 
the problems we have had. I happen to represent the city of 
Cincinnati, but there is urban areas all over the United States 
that have similar problems. What about gang problems you have 
in New York City or you have in Chicago or Detroit or a whole 
range of places? What about gangs? People that literally, I 
mean, will kill if they are told to do so by other members of 
the gang. We have huge numbers of people, oftentimes, young 
people that, you know, are dying on the streets. In Chicago, 
unfortunately, it is incredible how high the numbers are there. 
What would you say about people like that? Let me ask you. I 
will go over to you. Go ahead,
    Ms. Ryan. I mean, I think that there are a variety of gang 
reduction initiatives that you could look at to try to reduce 
gang violence in this country. But I think what you will find 
when you look at these cases individually is that young people 
can turn their lives around with supports. Because they join a 
gang because there is not anything else going on for them, 
right? They are brought into that because their life 
circumstances, and if there are alternatives to that, you know, 
like, you look at all the groups that are out there. The Boy 
Scouts, the Girl Scouts. Those could be considered a gang, 
right? Groups that provide not----
    Mr. Chabot. Well, I would not consider the Boy Scouts a 
gang.
    Ms. Ryan. Let me just say.
    Mr. Chabot. Just for the record. Let me go to Mr. 
SaintGermain. I have only got a limited amount of time.
    Mr. SaintGermain. Mr. Chairman that was a great question. I 
think what we have been talking about here is that we are 
actually competing with gangs, right? And what we are asking 
this committee is to invest in programs that young people will 
gravitate towards instead of gravitating towards gang members, 
right?
    Because gangs provide a false sense of protection for young 
people, right? They tell them, ``Look, we can protect you and 
we can provide incomes to you.'' And again, the adolescent's 
brain, if there is no alternative available to that child, then 
obviously the gang members look very appealing to that young 
person. So, again, gangs will exist unfortunately. So, our job 
as a society is to provide an alternative where if a gang 
member said, ``Hey, here is what you should do and here is what 
I think works for you,'' where we can be on the other side 
saying, ``Hey, here is the right alternative. And here are 
opportunities that will help you move forward in life.'' So, I 
mean we are competing with them and we have to invest in these 
young people.
    Mr. Chabot. I have only got about a minute left; so let me 
bring in Georgia and Indiana here. I mean, we are trying to 
help the youth and trying to turn their lives around and make 
them productive citizens, but do we not also have a 
responsibility to protect the public here? And especially with 
respect to gangs, is that not a problem? And I got like a 
minute left. If you could both take about 30 seconds I would 
appreciate it.
    Mr. Vignati. Sure. Thank you for the question. Yeah, it is 
a growing issue. I think that we have to be very deliberate 
about which youth that we place in secure confinement. And yes, 
there is a need for secure confinement from where we sit. Now, 
is it at the levels and numbers that we have in the past? No. 
We have been able to show that. But there is a public safety 
issue that we have to address. We have to be very thoughtful, 
and it has to be based on a risk assessment that has been 
validated. And I think that is the message to take away. So, it 
is not just the offense. It is the offense and a risk 
assessment that shows that those youth are a risk to public 
safety. And then we have to intervene.
    Mr. Chabot. Thank you. And I will conclude with Indiana 
here.
    Mr. McDonald. I would just have to echo Mr. Vignati's 
remarks. Again, it is not necessarily the offense; it is what 
is this child or what is this child missing? What do these 
assessments tell us that we can do? What are the services that 
we can provide to that child with a problem necessarily? What 
can we do to cure that issue, to prevent it?
    Mr. Chabot. Thank you very much. My time is expired. The 
ranking member of the full committee, Mr. Conyers, of Michigan 
is recognized for 5 minutes.
    Mr. Conyers. Thank you very much. This subject matter that 
we are dealing with here today is so important. We have got to 
come back to it. We have just opened the can a little bit.
    And I wanted to get all of your feelings, starting with Jim 
SaintGermain, about, suppose you were up here and you were 
sitting as a member hearing about this. What would you come 
away thinking, like I am now, what do I do about it? We have 
just got a new bill that just came out that we think is going 
to be better. But it is a deep, complex problem that has a lot 
of interconnecting issues tied up with it. It is not simple. 
So, do you go away feeling better about what we might be able 
to do or what we are learning? Or do you think that maybe we 
process this and say, ``Yeah, it was a good hearing and the 
witnesses were great, and then we go on to something else?'' 
What kind of direction can you give me?
    Mr. SaintGermain. Thank you for your question, and thank 
you for envisioning me in your position one day. I think that I 
believe in this committee. I believe in Congress. I think we 
will put children over politics and over fear. These are our 
kids, our young people. If we do not help them now, we will 
have to deal with them later. So, I think, in this hearing, you 
guys will take away from this that these are our kids, our 
young people. Whether they look like us, live in the same zip 
code as us, we have to invest in them. So, this committee, I 
believe, should push forward some of the legislation Ms. 
Jackson are proposing right now that would help young people to 
get on the right path. So, that is my personal opinion on what 
you guys should take from this, and I am sure the chairman will 
agree with me.
    Mr. Conyers. This is a very complex subject. Anybody else 
want to give us some advice in terms of directions?
    Mr. Vignati. Well, what I would say is that, over the 
years, things have gotten better. I think you can feel good 
that you as a body have done your job with the Juvenile Justice 
Delinquency Prevention Act, you know? So, that is a positive. 
Looking at it from 10 years ago, Georgia used to get roughly $8 
million in Federal funds for juvenile justice with both the 
Formula Title II and the Juvenile Accountability Block Grant. 
Now, we get just a little over a million dollars. But what we 
have done is we have invested our State dollars because we view 
this as an important area. And we value the partnership with 
the Federal Government.
    So we are not coming asking for more Federal dollars, but 
what we are saying is those Federal dollars are important in 
planning. They are great seed money, and they are great to help 
us with, ``Hey, what works?'' And what works is what we now 
know. We did not know 30 years ago what works. Now we do, so 
let's use what works. Let's push the field forward. Let's 
assess with validated risk assessments what is going on with 
our kids and make better decisions. So, I think you can feel 
better about where you are at. So, that would be my take, sir.
    Mr. McDonald. Representative, if I may. It is, you know, 
encouraging to hear that JABG funding is maybe coming back up 
to be refunded. I may be mistaken, but I believe it has been 
almost----
    Mr. Conyers. Move your mic a little closer.
    Mr. McDonald. It has been almost 5 years since the JABG 
program, the Juvenile Accountability Block Grant, has been 
funded at the Federal level. Which, I can attest Indiana is 
much like Georgia. We used to receive a substantial amount of 
juvenile justice money and we no longer do. We do receive Title 
II funds, but again, those have been reduced. So, I mean, I 
know funding is not necessarily in front of this particular 
committee, however, when you have the chance and you look at 
some of the regulations necessarily involved with these 
particular pots of money, like JABG for instance, I know 
Indiana, I do not know how Georgia feels. But sometimes we are 
a little confined in what we can use those dollars for. So 
maybe look at some of those approaches.
    In JABG, for instance, you have programmatic areas that you 
have to apply for when you apply for that funding, which limits 
us because then that limits us at the State level than on the 
types of programs we can then fund with those dollars. So that 
might be something that you may want to think about moving 
forward as creating or eliminating that.
    Mr. Chabot. Thank you very much.
    Mr. Conyers. Thanks so much.
    Mr. Chabot. Thank you and the gentleman's time is expired. 
The gentlelady from California, Ms. Bass, is recognized, once 
again, and probably our last interrogator this morning.
    Ms. Bass. Okay. Well, thank you, Mr. Chair. I do want to go 
back to the aspirational theme that I was referring to which is 
I think we should move in our country toward the direction of 
eliminating the juvenile justice system. I want to reiterate 
that I think the work you guys do is great. And I want us to 
make sure that we continue to fund the programs. But I am 
trying to make the point that 10, 15 years down the line, since 
you, Mr. Vignati said, that we know what needs to be done now. 
So, fund what needs to be done. Take that $100,000 a year and 
use it toward prevention.
    So, in a minute I am going to ask you guys about prevention 
programs. Yes, we have problems in our country now. Crime and 
violence and I specifically want to talk about gangs, because I 
want to invite our acting chair to come to Los Angeles since I 
come from the home of the Crips and the Bloods. Very serious 
gang problems in Los Angeles, but we do know about gangs. We do 
know how to prevent them. But we also have to address the class 
differences.
    So, maybe we should have a hearing where we invite programs 
that are used with the fluent kids. You know, kids that go to 
private schools. And when they get into trouble the programs 
that they go to instead of being incarcerated. That might be 
really interesting to have a panel like that to talk about 
boarding schools where wealthy people send their troubled teens 
to. To talk about the mental health programs that wealthy kids 
have access to. Do you remember the youngster that was said to 
have affluenza? He had a DUI, he killed a bunch of people, and 
the judge felt sorry for him and said, ``Oh my goodness, he 
suffers from affluenza.''
    So gangs. I want to get to the point that Ms. Ryan was 
trying to make when she was referring the Boy Scouts, and I 
want to direct this to our acting chair. You know, the 
difference in poor communities is that you do not have the 
money to belong to the Boy Scouts or Girl Scouts or participate 
in after school athletics. Those cost money to buy the 
uniforms, to participate in the activities. Kids join gangs 
because gangs are surrogate families. Gangs are responding to a 
need. If we build up our prevention programs, and we have those 
programs in Los Angeles, by the way. We need to have many more 
of them, which is why you guys need the funding so that you can 
deal with programs like that in your communities.
    But, we do know how to address gang violence, we know how 
to solve these problems, but we need to have the political 
commitment to do so. And violence is one of the reasons why it 
is difficult to have. Because what happens is that you start 
moving in the direction of prevention and then some young 
person commits some horrific crime, and then everybody moves 
the needle, you know, back.
    So, the question that I would like to ask each of you to 
respond to is if you had the money to invest in prevention 
programs could you name a couple that you might invest in or 
talk about programs that you already have? And in my minute and 
a half left, if each of you could respond to that with Mr. 
Vignati first.
    Mr. SaintGermain. Ms. Bass, I will give you one quick 
thing. For example, in New York City, we have the Summer Youth 
Employment Program, right? During the summer times. So, right 
now, currently, we have 100,000 young people seeking summer 
youth jobs, which lasts, I think 6 weeks over the summer. But 
the city only have money to fund for 60,000 young people. So, 
in other words, we have 40,000 young people left in the 
streets. And we know that an idle mind is the devil's 
playground.
    Ms. Bass. Right.
    Mr. SaintGermain. So, those 40,000 young people are more 
likely to be involved in the streets and trying to get money 
the other way. So, I think one of those things is that we can 
fund, right, as a crime prevention measure, is summer youth job 
programs similar to the one I have just described.
    Ms. Bass. That is why middle-class parents have their kids 
involved in 50 different activities.
    Mr. SaintGermain. That is exactly right.
    Ms. Bass. That they pay for.
    Mr. Vignati. So, in Georgia, we have a voluntary juvenile 
justice incentive grant program that is just about to complete 
its fourth year of operation as part of our juvenile reform in 
Georgia. And it has served over 4,500 youth since 2013. 
Participating counties have realized a 53 percent decrease in 
commitments to the Department of Juvenile Justice over their 
pre-reform rates. Through the provision of these community-
based services, we have been able to divert youth who would 
have ended up in those $90,000, now $100,0000, beds, and we are 
still able to protect public safety. So, those are the types of 
programming that we have to look at. So, let's shift our 
thinking and assess, I hate to keep saying it, risk 
appropriately and divert the medium- and high-risk youth that 
would end up in our system into that programming.
    Ms. Bass. Thank you.
    Mr. McDonald. Yes, thank you, representative, for the 
question. I think that prevention can be addressed in a couple 
of different ways.
    One, prevention can be identified predominately as let's 
just keep crime from happening or keep a juvenile from 
committing an offense. I think programs that help address that, 
we do have some in Indiana, particularly in Indianapolis, which 
is our capital city, that are running with our public school 
systems. For instance, where they have in school and after 
school programs. Kids are receiving one, two, three meals a 
day. They are getting food. They are getting that kind of 
stuff. You know, they do not have to go to the convenience 
store and steal a candy bar to have dinner for instance. I am 
not saying that they do that, but as an example. So, programs 
like that are really good.
    I think prevention based programs can also come from a 
recidivism reduction. So, if you have a juvenile that has 
committed an act, again, what do the assessments tell us? What 
types of programs can we provide for young kids? Like, we have 
got one in Indiana that we fund. It is a reading-based program 
where they use literature to teach certain fundamentals, 
certain characteristics and how to teach a juvenile how to 
address certain motives and responses throughout life through 
reading and education. So, I think those are other ways to 
address prevention or ways to define prevention to help kids 
that are already in the system.
    Mr. Chabot. The gentlelady's time is expired. The chair 
would now recognize the gentlelady from Texas for the purpose 
of introducing some documents into the record.
    Ms. Jackson Lee. Mr. Chairman, thank you and if I might, 
just thank you and all the members who came and the witnesses. 
And I want to acknowledge, as I put this in the record, Senator 
John Whitmire and former Senator Rodney Ellis from Texas who 
helped move Texas forward in juvenile justice reform and say to 
Ms. Bass that we are in tandem on the aspiration becoming a 
reality.
    I want to introduce into the record the Pew Charitable 
Trust ``Bending the Curve: Juvenile Justice Corrections Reform 
in Texas.'' I ask unanimous consent.
    Mr. Chabot. Without objection, so ordered.
    Ms. Jackson Lee. The early Trump budget details for youth 
and family services, the impact that the budget would have on 
the very dollars that these fine witnesses have asked, buy John 
Kelly. I ask unanimous consent.
    Mr. Chabot. Without objection, so ordered.
    Ms. Jackson Lee. Then, two articles in the New Yorker on 
the life of Kalief Browder and that is from Jennifer Gonnerman, 
June 2, 2016 and June 7, 2015. Excuse me, I am sorry, 2015. I 
ask unanimous consent.
    Mr. Chabot. Without objection, so ordered.
    Ms. Jackson Lee. I ask unanimous consent for my full 
statement to be placed in the record.
    Mr. Chabot. Without objection, so ordered.
    Ms. Jackson Lee. And then, ask to be placed in the record 
Kalief's Law, H.R. 47. Ask unanimous consent for that to be in 
the record.
    Mr. Chabot. Without objection, so ordered.
    Ms. Jackson Lee. Banning solitary confinement. I ask that 
the Tiffany Joslyn Juvenile Accountability Block Grant Program, 
which is a Justice Department program to give money to the 
States and cities. Unanimous consent.
    Mr. Chabot. Without objection, so ordered.
    Ms. Jackson Lee. I ask unanimous consent for H.R. 61, Fair 
Chance for Youth. That would be an expungement, but Mr. 
SaintGermain has said, and look at him now. I ask unanimous 
consent.
    Mr. Chabot. Without objection, so ordered.
    Ms. Jackson Lee. And then, ask unanimous consent for the 
H.R. 65 that provides the biggest leap is that we have 
different places for these young people to stay rather than 
being incarcerated. And I look forward to working with you, Mr. 
Chairman, and others on this. And I thank the chairman of the 
full committee, and the ranking member for their leadership in 
allowing these hearings to go forward. I wonder if the 
witnesses will stay and come up here so we can shake your hands 
and all of that. Thank you, Mr. Chairman. I yield back.
    Mr. Chabot. Thank you. Without objection, so ordered.
    And the chair would ask unanimous consent that all members 
have 5 legislative days to extend their remarks or submit 
comments or questions. Without objection, so ordered. And if 
there is no further business to come before the committee, we 
are adjourned. Thank you.
    Mr. SaintGermain. Thank you, Mr. Chairman.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]

                                  <all>
</pre></body></html>
